<html>
<title> - TRANSPORTATION WORKER IDENTIFICATION CARDS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
               TRANSPORTATION WORKER IDENTIFICATION CARDS 

=======================================================================

                                (110-58)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

36-689 PDF                       WASHINGTON : 2007 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  


        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York          TED POE, Texas
VACANCY                              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)


















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Allegretti, Thomas, President, American Waterways Operators......    33
Candies, III, Otto, Secretary/Treasurer, Otto Candies, LLC for 
  Offshore Marine Services Association...........................    33
Fanguy, Maurine, TWIC Program Manager, Transportation Security 
  Administration.................................................     5
Gosselin, Debbie, Owner of Chesapeake Marine Tours/Watermark 
  Cruises, Passenger Vessel Association..........................    33
Holder, Tamara, Representative for Rainbow/Push Organization.....    33
Rodriguez, Michael, Executive Assistant to the President, 
  International Organization of Masters, Mates, and Pilots.......    33
Salerno, Rear Admiral Brian, Assistant Commandant for Policy and 
  Planning, U.S. Coast Guard.....................................     5
Willis, Larry, General Counsel, Transportation Trades Department, 
  AFL-CIO........................................................    33

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Allegretti, Thomas A.............................................    48
Candies, III, Otto...............................................    57
Fanguy, Maurine..................................................    61
Gosselin, Debbie.................................................    72
Holder, Tamara N.................................................    80
Rodriguez, Michael...............................................    85
Salerno, Rear Admiral Brian......................................    92
Willis, Larry I..................................................   111

                       SUBMISSIONS FOR THE RECORD

Salerno, Rear Admiral Brian, Assistant Commandant for Policy and 
  Planning, U.S. Coast Guard, responses to questions from Rep. 
  Cummings.......................................................    97

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         HEARING ON TRANSPORTATION WORKERS IDENTIFICATION CARDS

                              ----------                              


                        Thursday, July 12, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
    Subcommittee on Coast Guard and Maritime Transportation
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. Good morning. The Subcommittee will now come 
to order.
    From the first day I assumed the Chairmanship of this 
Subcommittee I began to hear from the maritime industry about 
the ``TWIC'' program, the Transportation Worker Identification 
Credential. The TWIC is essential to ensuring that we allow 
only those people to access our nation's sensitive 
transportation infrastructure, like the ports through which so 
much of our commerce flows, who do not pose a threat to the 
security of that infrastructure, and, indeed, our nation.
    However, like all the new security measures instituted 
after 9/11, the introduction of TWIC requires the Government to 
strike a delicate and careful balance to ensure that the 
security measure achieves our critical security goals but does 
not, and I emphasize does not, place an undue burden on the 
maritime industry, interfere with the flow of commerce, or lead 
to the unfair treatment of workers.
    Today's hearing will give the Subcommittee the opportunity 
to take a comprehensive look at the impact that the 
introduction of the TWIC may have on the maritime industry. 
Unfortunately, also like many of the security improvements 
introduced after 9/11, the rollout of TWIC has not been as 
seamless as expected. The card was initially expected to be 
issued in 2003 and has now been issued to just a handful of 
transportation workers under a pilot program.
    The first maritime workers will likely begin receiving 
cards in the fall. The current schedule expects all 
transportation workers to receive a card by September of 2008. 
But the Government Accountability Office estimates that 750,000 
mariners and 3,500 maritime facilities and more than 10,000 
vessels will need the card, presenting a significant challenge 
to TSA and to the Coast Guard.
    Mariners will be required to pay approximately $140 to 
obtain a TWIC unless they already have a merchant mariner 
document. However, the Government Accountability Office 
reported in a September 2006 study that the Transportation 
Security Administration has estimated that the rollout of the 
TWIC will cost the Government and maritime industry $800 
million over the next 10 years. And we do not yet know for sure 
precisely how that sum will be divided between the two parties.
    Importantly, the cards themselves is only half of the 
puzzle that needs to be solved to create the security regime 
that TWIC is intended to provide at our ports. The card must be 
validated by readers that will control access to secure 
locations. But the Government has not yet issued a final rule 
regarding the readers. Thus, many of the questions that the 
industry approached me with back in January remain to this day 
unanswered, including whether smaller vessels and facilities 
will be required to have a card reader, and even who will bear 
the cost of the reader installation. I hope our witnesses will 
address that issue because this is one that has been brought to 
me over and over and over again.
    I noted that in Rear Admiral Salerno's testimony he talked 
about, and so did Ms. Fanguy, talked about not interfering with 
commerce, undue interference with commerce. I want to know 
about that because one of the things that I do not want to do 
is see small operators in the maritime industry be unduly 
burdened when they are trying to conduct their businesses. Of 
course, we want to strike that balance of national security, 
but we also want to make sure that we look at how this effects 
small operators.
    Perhaps most critically, the rollout of the TWIC also 
entails the conduct of a comprehensive security screening of 
all workers now in the maritime industry and the introduction 
of an ongoing screening program that will examine all who will 
enter the maritime industry. A person who applies for a TWIC 
will undergo a background check, a check of immigration status, 
and a check against national terrorism databases. Certain 
crimes involving terrorism or transportation security incidents 
will permanently disqualify a person from receiving a TWIC. 
Other convictions within the past seven years will constitute 
interim disqualifications.
    While individuals who are denied a TWIC because DHS 
believes that they pose a security risk or are due to a 
disqualifying crime will have the opportunity to appeal, the 
appeals process will be complicated. It will place the burden 
of disproving the Government's determination on the applicant. 
I note that the Baltimore Sun on June 24 of this year published 
serious allegations against the Coast Guard's administrative 
law system. If they prove to be true, ladies and gentlemen, 
they raise very, very, very disturbing questions about the 
ability of the system to guarantee fair treatment to mariners 
who come before it. Our Subcommittee is closely examining the 
allegations and we anticipate that the Coast Guard's 
administrative law system will be the subject of a hearing 
later this month.
    Obviously, the purpose of the TWIC is to prevent people who 
pose a security risk from accessing a port, and that security 
purpose is paramount. However, I strongly believe that those 
who have made mistakes that did not involve security and who do 
not pose security risks should not be denied the opportunity to 
work in the maritime industry, which is essentially what the 
denial of a TWIC application will mean. President Bush himself 
said in his 2004 State of the Union Address, ``America is the 
land of the second chance.'' And when the gates of the prison 
open, the path ahead should lead to a better life. The maritime 
industry offers great opportunities for that better life and it 
also faces a critical labor shortage. It is imperative that the 
process for denying an individual those opportunities be fair 
and not put unsurmountable hurdles in the way of hardworking 
individuals who are truly committed to bettering their lives.
    I look forward to today's testimony and our witnesses. I 
want to thank all of you for being here. And now I recognize 
our distinguished Ranking Member who I am honored to work with, 
it is a real pleasure, our Ranking Member Mr. LaTourette.
    Mr. LaTourette. Well thank you very much, Mr. Chairman, and 
it is an honor and a pleasure to work with you. I think we have 
developed a good partnership in this early stages of the 110th 
Congress. Before giving my opening remarks, I would ask 
unanimous consent that Mr. Baker of Louisiana, a Member of the 
Full Committee but not of the Subcommittee, be permitted to 
make an opening statement and participate in today's hearing.
    Mr. Cummings. Without objection, so ordered.
    Mr. LaTourette. I thank you, Mr. Chairman. The Subcommittee 
is meeting this morning to continue its oversight of the 
Department of Homeland Security's efforts to implement 
transportation security credential programs that were first 
required under the Maritime Transportation Security Act of 
2002. Under that Act, all maritime workers will be required to 
apply for and receive the TWIC that is embedded with biometric 
information.
    In the nearly five years since this requirement was first 
enacted several statutory deadlines have been established for 
the rollout of the program, including a deadline of July first 
of this year, 2007, which was set in last year's SAFE Port Act. 
The Department has issued final regulations to implement the 
program in January of this year; however, no TWIC cards have 
been issued and it is unclear when this program will be up and 
running. The program is critical for maintaining security 
levels at our seaports and we simply cannot afford to miss any 
further deadlines. I hope and expect that the witnesses will 
provide the Subcommittee this morning with a firm 
implementation schedule for this important program. I am 
confident that under the leadership of our very talented and 
gifted Subcommittee Chairman, this Subcommittee will do its 
part to make certain that this schedule is met.
    Under the SAFE Port Act, the Department is required to 
develop TWIC card reader technologies and to test those 
technologies in a pilot program to be established at several 
U.S. ports. I understand that plans are underway to start the 
pilot program at the ports of Los Angeles and Long Beach in the 
near future. I hope that the witnesses will share more 
information with the Subcommittee regarding the Department's 
plans to carry out testing under the pilot program, the 
anticipated schedule for receiving results, and the number and 
location of ports that will participate.
    The Subcommittee will also hear from several witnesses on 
the second panel regarding the anticipated impacts of the new 
TWIC requirements on maritime industries and maritime workers. 
I encourage the Coast Guard and the Transportation Security 
Administration to continue working with these groups to reduce 
negative impacts to the greatest extent possible.
    I want to thank all of the witnesses for appearing today in 
advance. I look forward to receiving their testimony. And I 
yield back to the Chairman.
    Mr. Cummings. Thank you very much, Mr. LaTourette. We will 
certainly welcome Mr. Baker to our hearing.
    We want to thank you, Mr. Baker, for your interest in this 
hearing. We have heard a lot of very good suggestions and input 
from you. So we welcome you, and I yield to you for an opening 
statement.
    Mr. Baker. Mr. Chairman, I appreciate the courtesy extended 
and the assistance of the Ranking Member in allowing me to have 
a brief opening statement on this matter. I come here today out 
of a strong sense of urgency for the Louisiana marine industry 
and the potential complications that the current structured 
TWIC implementation may present to that industry.
    It is currently very difficult to get new hires to enter 
into the marine business. For those who have never been on the 
southern end of the Mississippi on a slow day in August, 
traveling seven knots on the river, it came make quite an 
impression on you. The practical observation I wish to make is 
that requiring someone to make the physical trip to a regional 
center and pay the $137, even if it is the most convenient and 
expedited process possible, creates a barrier to employment 
that is real. For many of these individuals, they are entry 
level jobs, first entering the workforce perhaps, and they have 
not yet made nor have they determined their suitability for a 
life in the marine industry.
    Further, I would point out, at least from my perspective, 
that it is the person in command and control of that vessel tow 
that presents the most significant threat to some untoward ill-
advised activity. A deck hand would have to join together with 
others and almost create some act of mutiny to take over the 
vessel and conduct some activity which would not be in the 
public interest. Now I realize individuals can do certain 
things to bring about certain ill events. But it would seem 
that in the risk profile that a new hire just coming on to the 
job should be able to pass some rudimentary background 
examination, checked against the terrorist list, drug screens, 
the very commonsense things that one might expect to be done on 
any employment, but then given some period of time and perhaps 
the ability to earn a paycheck or two so that when they pay 
that fee they have the financial ability to do it, and 
secondly, have made the career decision that this is something 
that I really want to continue to engage in, therefore applying 
for my TWIC makes professional sense.
    I come to those observations and recommendations not on my 
own but from some considerable conversation with people in the 
industry who are struggling to find young men and women who 
choose to work in the this type of occupation. Further, 
Chairman Oberstar has indicated in a hearing just concluded his 
willingness to consider modifications statutorily to the 
program. I am anxious, of course, to work with and hear the 
reasonable explanations as to why this approach could not be 
modified or, more importantly, be found a reasonable 
modification to the current proposal.
    I regret further, Mr. Chairman, that because of Committee 
schedules, I cannot stay for the hearing this morning. But I 
did not want the opportunity to go by since I raised the issue 
at Full Committee. I certainly wanted to at least personally 
inform the expert witnesses here today of my sincere interest 
in this matter and, to express to you, Mr. Chairman, and to 
Ranking Member LaTourette my deep appreciation for the hearing 
and for the opportunity to continue to work with you as we go 
forward. I thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much, Mr. Baker. Mr. Coble.
    Mr. Coble. Mr. Chairman, very briefly. I, not unlike the 
gentleman from Louisiana, have another Committee hearing as 
well. I want to hang around here for a while because this is a 
very, very significant issue. I thank you and the Ranking 
Member for having called the hearing. Thank you.
    Mr. Cummings. Thank you very much, Mr. Coble.
    We now welcome our first panelists. Ms. Maurine Fanguy is 
the TWIC Program Manager for the Transportation Security 
Administration, and Rear Admiral Brian Salerno is the Director 
of Inspection and Compliance for the United States Coast Guard. 
We will hear from Ms. Fanguy first and then we will hear from 
the Rear Admiral. Again, we thank you very much for being with 
us.

      TESTIMONY OF MAURINE FANGUY, TWIC PROGRAM MANAGER, 
  TRANSPORTATION SECURITY ADMINISTRATION; REAR ADMIRAL BRIAN 
  SALERNO, ASSISTANT COMMANDANT FOR POLICY AND PLANNING, U.S. 
                          COAST GUARD

    Ms. Fanguy. Good morning Chairman Cummings, Ranking Member 
LaTourette, and distinguished Members of the Subcommittee. 
Thank you for this opportunity to speak about the 
Transportation Worker Identification Credential, or TWIC, 
program.
    My name is Maurine Fanguy and I am the program director for 
TWIC. I am pleased to represent Assistant Secretary Kip Hawley 
here today. I would first like to thank this Committee for its 
leadership in defining the vision and requirements for TWIC. 
Today I will discuss TSA's progress in delivering this critical 
security enhancement.
    For us, the stakes are enormously high. We are mindful of 
the SAFE Port Act July 1 deadline. But before TSA rolls out one 
of the world's most advanced interoperable biometric systems, 
we must ensure that we get it right the first time, and, even 
more importantly, the TWIC enrollment process cannot negatively 
impact the free flow of commerce or people's livelihoods.
    Once TWIC is up and running, TSA will vet as many workers 
in one day as we did during the entire year of prototype. The 
importance and enormity of this task within the maritime 
environment, with a dynamic and mobile workforce, demands that 
we get it right. Moreover, for the people who pay for these 
cards and use them daily to enter their workplaces and jobs, we 
must ensure that the program is fully tested and does not 
compromise security or privacy.
    It is important to realize that there are four key 
differences that make the TWIC card dramatically different from 
the badges we all wear everyday:
    One, the TWIC cards uses ``smart card'' and biometric 
technologies based on the most advanced Federal Government 
standards and for the first time applies them in the commercial 
sector.
    Two, TWIC issues cards that can be used at any port or 
vessel across the entire nation.
    Three, TWIC has massive scale. Over one million cardholders 
will use this same credential across 3,200 facilities and on 
10,000 vessels.
    Four, finally, TWIC issuance is based on comprehensive 
security checks that involve sharing data across multiple 
agencies. These checks are integrated into all of TSA's vetting 
programs. Which means that we can connect the dots throughout 
the entire transportation sector.
    TWIC is a sophisticated system powered by state-of-the- art 
technologies and we are focused on a rigorous program to flight 
test TWIC before we can go out to the ports. Testing is well 
underway and, based on our most recent test results, we expect 
to begin enrollment in Wilmington, Delaware in the fall of this 
year. After proving our field processes in Wilmington, TWIC 
enrollment will proceed throughout the nation in a phased-in 
approach based on risk and other factors. The 130 enrollment 
sites will be established by the end of fiscal year 2008.
    TSA will continue to work with our partners, the U.S. Coast 
Guard, and maritime stakeholders to ensure that for the first 
time in history thousands of independent businesses will have 
one interoperable security network and workers will hold a 
common credential that can be used across that entire network. 
Assistant Secretary Hawley has given us the mandate to get TWIC 
right the first time.
    Thank you for the opportunity to appear today. I would be 
happy to answer any questions.
    Mr. Cummings. Thank you very much. Rear Admiral.
    Admiral Salerno. Good morning, Chairman Cummings, Ranking 
Member LaTourette, and distinguished Members of the 
Subcommittee. Thank you for this opportunity to speak with you 
this morning about the current status and the way ahead for the 
TWIC program. Specifically, I would like to update the 
Subcommittee on the Coast Guard's efforts, in partnership with 
TSA, to implement this program. Our overall goal is to 
strengthen maritime security while balancing the need to 
facilitate commerce and minimize negative impacts on port and 
vessel operators.
    Although the TWIC program has not moved as rapidly as all 
of us would like, important milestones have been accomplished, 
working relationships have been strengthened with public and 
key industry stakeholders, and our commitment to protecting the 
maritime transportation system while facilitating commerce has 
not wavered. Since publication of the final rule in January of 
2007, Coast Guard and TSA have continued to meet with our 
stakeholders in various venues and we have received 
considerable input on their ongoing concerns. These venues have 
included national trade associations, marine industry 
organizations, and labor unions.
    The concerns expressed in these meetings have focused on 
the details of TWIC enrollment and vetting, the need to ensure 
that new hire provisions contained in the rules function as 
intended and serve the needs of small businesses, and the 
execution of pilot tests which will pave the way for the follow 
on rulemaking addressing card reader requirements.
    To facilitate the rollout of the TWIC cards, Coast Guard 
and TSA have worked together to develop several supplementary 
documents to assist those affected by the regulations. These 
documents include a Navigation and Vessel Inspection Circular, 
or what we call a NVIC, which explains the processes and 
procedures related to the implementation of the TWIC. In 
creating this NVIC, we have solicited and we have received 
valuable input from the affected industry as well as from Coast 
Guard field personnel.
    This NVIC, which is numbered 307 and entitled Guidance for 
the Implementation of the Transportation Worker Identification 
Credential Program in the Maritime Sector, was approved last 
week and is now available to our industry partners, our 
stakeholders, and other interested parties on the Coast Guard 
and TSA internet websites.
    We have also assisted in the development of two Small 
Business Administration compliance guides to further assist our 
industry partners and to provide a plain language overview of 
the program for TWIC applicants. These are currently undergoing 
final review and will be released in the near future.
    Additionally, we are developing internal guidance documents 
for training, implementation, and enforcement to provide Coast 
Guard field personnel with the tools and policy necessary to 
ensure that the TWIC program is soundly and consistently 
implemented nationwide.
    As we prepare for the implementation phase, we are 
committed to continue working with industry to bring about the 
smooth transition to TWIC access control measures. We are 
particularly aware of stakeholder concerns regarding the high 
turnover rate of personnel in some maritime trades and their 
ability to enable newly hired employees to begin work right 
away.
    Our current regulations, policy, and guidance reflect those 
concerns, such as in provisions that enable new employees to 
begin work immediately after enrolling for their TWIC. In 
implementing TWIC, however, we want to ensure that special 
provisions like this one achieve an equivalent level of 
security across the maritime transportation system as a whole. 
For this reason, we are concerned about proposals that would 
grant specific maritime trade special exemptions to current 
requirements.
    Although we are now working on implementation of the 
current TWIC program requirements, we have also begun to work 
on future rulemaking that will address requirements for card 
readers. The readers will be designed to verify a TWIC- 
holder's identity before gaining unescorted access to secure 
areas of a vessel or a facility. We are seeking the 
collaboration of our stakeholders in this effort. We have 
requested recommendations on specific potential reader 
provisions from our partners in the National Maritime Security 
Advisory Committee, the Merchant Marine Personnel Advisory 
Committee, and the Towing Safety Advisory Committee.
    In the meantime, to maximize the security benefit contained 
in the current TWIC requirements, the Coast Guard intends to 
procure handheld readers for use during vessel and facility 
spot checks. After the compliance date is reached in a given 
port, the Coast Guard will use the handheld card readers to 
randomly check the validity of an individual's TWIC. This will 
serve as an interim measure until the industry's card reader 
requirements are established.
    TSA and Coast Guard continue to reach out to our private 
sector stakeholders in the interest of fashioning a regulation 
that strengthens America's maritime security while advancing 
commerce. Thank you, Mr. Chairman, for the opportunity to speak 
with you today. I will be happy to take your questions.
    Mr. Cummings. Thank you very much, Rear Admiral. I want to 
start with you, Rear Admiral, and just ask you a few questions. 
My concerns go in large part to where we are and are we going 
to be prepared to do this Coast Guard-wide. One of the things 
that this Committee has done is we are in the process of 
tackling a lot of issues, things like LNG, short sea shipping, 
boating safety, things of that nature, and one of the things 
that has become clearer and clearer, particularly post-9/11, is 
that the Coast Guard is being stretched and stretched and 
stretched.
    And now here we have something new that we have got to deal 
with and is very, very important. I want to make sure that we 
are prepared, that we have the manpower and womanpower to do 
this and do it effectively and efficiently. Ms. Fanguy said 
something that is exactly right. We really have to get this 
right. Because if we do not get this right, it is going to be 
total chaos.
    And so, Admiral Salerno, concerns are being raised about 
possible TWIC card reader requirements. And I know what you 
said about the regulations, but I hear this over and over 
again. For example, should a charter fishing boat with one 
licensed captain have to have a TWIC card reader so he can scan 
his own card? I am very serious about this. Part of the problem 
is that having been a businessman myself, one of the things 
that business people are concerned about is they have to know 
what is expected of them because they have to actually plan far 
out and they need to be clear as to what is expected. So can 
you comment on that one for me please.
    Admiral Salerno. Yes, sir. I will answer in two ways, if 
you will permit me, sir. As far as the requirement to obtain a 
TWIC, a merchant mariner, anybody who has a license or a 
document is required to obtain a TWIC. That is derived from the 
legislation.
    Mr. Cummings. Right. Talk about the card reader.
    Admiral Salerno. The card reader is the second aspect of 
this. That will be the subject of the next rulemaking. We have 
not yet determined what the threshold will be for card readers 
on smaller vessels. There are a series of pilots that will take 
place. You mentioned Los Angeles, Long Beach as a facility 
pilot, there are other facilities that will be looked at. But 
included in the pilot program are some vessels and we will look 
at towing vessels, for example, and small passenger vessels and 
make some determination as to what the appropriate threshold is 
for a reader or if a reader is necessary. So I would say, sir, 
that is still to be determined.
    Mr. Cummings. And when do you anticipate that rulemaking?
    Admiral Salerno. It will become part of the pilot project 
but as well we have also asked the advisory committees to 
comment on what are the appropriate thresholds. So all of this 
will be taken up in the process of the second rulemaking.
    Mr. Cummings. I have read the testimony of our various 
witnesses, and you probably will not be here when they testify, 
but say, for example, a towing vessel with a crew of six people 
who have sailed together for years, would they have to have a 
TWIC card so that they can scan each other as they move on and 
off the vessel in fleeting operations with other barges? Those 
are the kind of questions they have.
    Should a vessel on an inland lake such as Lake Powell in 
Utah have to have a TWIC card if there is little chance that 
they could be involved in a transportation security incident? 
Those are real practical questions that are going to be raised 
after you leave. Another one is how are you going to deal with 
TWIC card readers on ships like cruise ships whose personnel 
move constantly from a public area to a restricted area? Is it 
reasonable to require a cruise ship to have over 200 card 
readers at each doorway between a public and a restricted area? 
And would waiters have to scan their cards to get into the 
kitchens to pick up a tray of food?
    These things sound very mundane but they are very real. And 
again, I have got to tell you, in talking to industry folks, 
maritime folks, they want to obey the law but they need to know 
what is expected of them so that they can properly prepare. And 
I am sure they would want to have as much input as possible 
into what you are doing in this rulemaking so that their 
concerns might be taken into consideration. And listening to 
what you just said, I take that to be the case?
    Admiral Salerno. Yes, sir. Absolutely the case that our 
intention is to remain fully engaged with our stakeholders so 
that as we go through this process of developing the 
requirements in the second rule we have the benefit of their 
views and we understand what is reasonable and practical.
    Mr. Cummings. Can you describe how the TWIC will work with 
or compliment merchant mariners documents, and how will the 
documents be consolidated, and how will the application process 
be coordinated?
    Admiral Salerno. The merchant mariners credentials, we have 
a proposal or project in place now to consolidate some of the 
existing merchant mariner credentials into a single document. 
Currently, there is a license, there is a document, potentially 
a certificate of registry, an STCW endorsement and so forth. So 
we have this multiplicity of documents that a mariner is 
required to obtain.
    We are proposing to consolidate those. It will not at this 
point, however, include consolidation of the TWIC. So that a 
mariner would still have to have his merchant mariner 
credential and a TWIC. We do plan to harmonize as much as 
possible between those two documents so that we can parallel 
process the application for a TWIC and for a merchant mariner's 
document, so compressing the timeframe required.
    Currently, to obtain a merchant mariner's document there is 
a security background check associated with that which is 
performed by the Coast Guard. Once the TWIC takes place, that 
background check requirement for security purposes will shift 
to the TWIC process. So there will not be a duplication of the 
security background check. What the Coast Guard will continue 
to do is a safety background check, such things as looking at 
the National Driver Register for drunk driving offenses and so 
forth, because there is a safety concern there that TWIC is not 
concerned with.
    So to the extent possible, we will harmonize. But we are 
looking at still two separate documents.
    Mr. Cummings. All right. Well the current schedule expects 
that all transportation workers receive a card by September 
2008. That is just a little over a year from now. But the 
Government Accountability Office estimates that 750,000 
mariners, and 3,500 maritime facilities, and more than 10,000 
vessels need the card. Is the Government prepared, and perhaps, 
Ms. Fanguy, you might want to take a look at this question, is 
the Government prepared to have issued all of those cards by 
September 2008?
    Ms. Fanguy. We have established a plan that once we 
complete our testing of the system we will begin in Wilmington. 
After we have done the proving out of our processes in 
Wilmington, we have a pretty aggressive plan to stand up over 
130 enrollment sites throughout the United States and its 
territories. Our plan is a two-pronged approach. We will be 
standing up fixed sites, those are the over 130 sites I 
mentioned, as well as mobile sites so that we can really get 
coverage across the nation. We recognize that this is a very 
large population, very mobile, and that is why we have this 
two-pronged approach so that we can try to get as much coverage 
as possible early on.
    So right now, in partnership with our contractor Lockheed 
Martin, we certainly believe that we have the ability to fan 
out quickly. There is also a lot of flexibility within our 
contract to be able to add shifts if necessary to cover more 
workers in an area, to send out equipment and people to 
actually enroll workers. So we feel like we have a flexible 
plan in place. But, of course, we need to measure progress once 
we begin enrollment using a series of standard metrics that we 
will actually use to measure our contractor's performance and 
also our own. And that is how we will manage the program to 
make sure that we enroll all of the workers.
    Mr. Cummings. If I remember, in your testimony you talked 
about the contract with Lockheed Martin. And as you might 
imagine, this Committee has many concerns about contracts, 
particularly in light of deep water. I think you did say in 
your testimony something about bonuses. Did you mention bonuses 
in your testimony and how that would be determined?
    Ms. Fanguy. We have a performance-based contract which is 
considered to be a best practice in Government contracting. So 
it is not a typical time and materials type of contract. We 
have set out a fixed price for enrollment. So we have one price 
that we pay the contractor for each person who comes in and 
applies for a TWIC. We then have a series of performance 
measures that our contractor must perform to, and there are 
both disincentives if they do not meet those performance levels 
as well as incentives. We would be happy to get back to you 
with more details on the specific performance measures if that 
is something you would be interested in.
    Mr. Cummings. Yes. And the reason why I mentioned it is 
what you have said in your statement and in your written 
testimony, and that is that we have to get it right. We cannot 
afford to get it wrong.
    I just have one or two more questions and then I will turn 
it over to Mr. LaTourette.
    Going back to full implementation, are there plans, do you 
have contingency plans to delay implementation if the things do 
not go as you hope they should as you proceed?
    Ms. Fanguy. In terms of Wilmington?
    Mr. Cummings. In terms of implementation of the requirement 
for the maritime workers to obtain the TWIC.
    Ms. Fanguy. In terms of start of enrollment, we are basing 
the start of enrollment on completion of our testing. Right 
now, we would anticipate that that would start in the fall. But 
we will continue to monitor the progress of our testing of the 
system throughout the rest of the summer so that we can prepare 
to begin enrollment as quickly as possible in the fall.
    Mr. Cummings. One of the things that I want you to do so 
that we will not have any surprises is that I want you to keep 
the Committee apprised of what is going on, and if there are 
any significant problems we would like to know about them. We 
do not want to have to read about them in The Washington Post. 
If you would kindly do that, stay in contact with us and let us 
know what is going on.
    Finally, let me ask you this. One of the things that I 
raised, and I have a number of questions about this but I am 
going to just ask you one, Ms. Fanguy, would you please walk us 
through the process of how you would evaluate whether someone 
with a felony conviction should be issued a TWIC card. For 
example, if a 30 year old man held up a 7-11 when he was 18 
years old and went to prison for 3 years but now he has cleaned 
up his life, has held a steady job for the past 7 years, has 
family, volunteers in his church, would TSA automatically deny 
him a TWIC card because of his felony conviction, or will you 
evaluate his history to determine if he is a terrorism security 
risk?
    Ms. Fanguy. That is a great question. That is something 
that we would take very seriously. We have based the TWIC 
process for conducting security threat assessments on our 
hazardous materials endorsement program which does the same 
kinds of checks. The type of situation that you mention is 
something that we deal with every day on the Hazmat program. So 
in that particular case, the individual would come into an 
enrollment site, would provide their biographic and biometric 
information. Once we get that information, we send that off to 
do a legal presence check, we also do an FBI criminal history 
records check, and then we check against our intelligence 
databases for potential ties to terrorism. At that point a 
trained adjudicator will get all of the data in a case file 
that they are going to look at.
    So in the case that you mentioned, if it was one of the 
felonies that is a disqualifier within the TWIC rule, the 
individual would be mailed what we call an initial 
determination of threat assessment. And what that letter is is 
it lets the person know that you have one of the crimes within 
the timeframes that is a disqualifier, but if you would like to 
get a waiver--in other words, if you were convicted and that 
truly is you, you can get a waiver for that offense. And that 
certainly is something, again, that we deal with every day.
    We have tried to simplify our waiver process based on 
feedback from stakeholders on the Hazmat program. In terms of 
simplifying that process, we have made it more plain English. 
The other thing is we have made it so that you can provide any 
kind of evidence of your good character and the fact that you 
no longer present a security threat. So as an example, we would 
get letters from members of the community to attest to the 
person's good character, and also the time elapsed is certainly 
something that we would take into account.
    When we get that information back from the individual we 
then look at it and look very hard at the facts presented to us 
and we will determine whether they truly present a security 
threat. And in that case that you described, without having the 
full details, it would be potentially that the person would get 
the endorsement in the Hazmat case or TWIC if they do not 
present a security threat assessment. The thing that is 
important is that the person actually take advantage of the 
appeal and waiver process, though.
    Mr. Cummings. Just one last thing. Who hears these cases? 
You just mentioned that they go before some type of 
adjudicatory body. Who hears these cases?
    Ms. Fanguy. The first step is an appeals and waivers board. 
So an appeal is in the case that there may be erroneous 
information in your file. The waiver is if you truly did that 
offense on your rap sheet and you provide evidence to apply for 
a waiver for that.
    Mr. Cummings. You did not answer my question. I said who 
hears that.
    Ms. Fanguy. TSA is the first body who hears that 
information.
    Mr. Cummings. Okay. Does the Coast Guard ALJ get involved 
in this at all?
    Ms. Fanguy. In the next step in the process there is an ALJ 
hearing. We are currently a customer of the Coast Guard ALJ 
office.
    Mr. Cummings. And has there been any evaluation as to 
whether or not there are sufficient Coast Guard ALJs? Because I 
have got a feeling you are going to have a lot of cases coming 
through there. Is there any coordination?
    Ms. Fanguy. Absolutely. We meet with the Coast Guard ALJ 
office regularly. We just met with them yesterday. They had two 
open ALJ positions and they are now filled and the judges will 
be reporting to duty shortly from what I understand. In terms 
of the actual ALJ function, I would defer to the Admiral to 
talk more about the Coast Guard function.
    Mr. Cummings. Admiral?
    Admiral Salerno. Yes, sir. The ALJ process would work as an 
administrative hearing where the respondent would present 
information to be considered by the judge on that case and the 
judge would make the ruling on that. We do feel that with the 
additional two judges that have been hired we have the capacity 
to handle the anticipated workload from this program.
    Mr. Cummings. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. The first thing I 
want to ask I am going to ask on behalf of the Ranking Member 
of the Full Committee, Mr. Mica, he asked me to ask a question 
about Florida. He says that the State of Florida conducted a 
TWIC pilot program with TSA for nearly two years and the result 
of the project is the State issued a Florida Uniform Port 
Access Credential. Unlike TWIC, FUPAC is in place and is 
providing additional safety and security protection of Florida 
ports. It is his understanding that FUPAC meets TWIC technical 
requirements, and the first part of the question would be is 
his understanding correct?
    And secondly, that the State of Florida is concerned that 
it is unnecessary and redundant to also require TWIC at Florida 
ports. The question is, one, is it your understanding that this 
FUPAC meets TWIC technical requirements, and the second part is 
how is the department planning to work with Florida to address 
their concerns?
    Ms. Fanguy. You are absolutely right that we have been 
working with Florida since the pilot and we have been in 
regular contact with them since the prototype ended. In fact, 
we had folks in Florida earlier this week meeting with the 
State of Florida to look at how we can consolidate into a 
single credential. Based on the conversations that we had then, 
it is our understanding that the Florida folks would like to 
consolidate and have one credential be the TWIC credential.
    What we are really looking at is harmonization of the 
security checks. TSA does a comprehensive set of security 
checks that are quite different that the Florida checks. Our 
checks cover criminal history records checks, legal presence, 
as well as the consolidated Watch List checks. We feel that is 
very different, it is a security focused check and we feel like 
that is absolutely important to have in place to make sure that 
we are mitigating the risks in the ports including in Florida 
today.
    Mr. LaTourette. I thank you. I think Mr. Baker, who is not 
here anymore, was here not only because of his great interest, 
but during a recent markup he had an amendment and there was a 
colloquy between he and the Chairman of the Full Committee, Mr. 
Oberstar, and it was proposal in an amendment that he withdrew 
that I guess the two sides are working on that deals with this 
interim period. I think you heard in his opening remarks that 
he is proposing something that is different from the current 
regulations.
    My understanding, under the current regulations new hires 
will be allowed to work for 30 days or up to 60 days if granted 
a waiver, his proposal was 90 days, and the difference was that 
under the regulations you have to show proof that you have 
applied for the TWIC card and paid the fee, and I think his 
proposal is not in that regard.
    I guess I would ask you, are you familiar with his proposal 
and would solicit any views that either of you have on it?
    Admiral Salerno. Sir, I will take the initial stab at that 
and then see if Maurine has anything to add. We do have some 
concerns about that. The one difference, primary difference is 
that in the regulations as they are currently configured the 
applicant does have to apply for a TWIC, so that process begins 
to work. In the proposal as we have seen it, there is no 
requirement to apply. There is a 90 day window.
    So right away there is a concern about how do we track 
individuals who are in this 90 day window, how do we enforce 
that. The 90 days sounds good but it may be so open-ended that 
it may be 180 days before we even become aware of it. So there 
is no database to track that.
    There is a funding issue. The way TWIC is currently 
configured it is meant to be a self-funding system. So that the 
application fee works to help fund that background check. In 
the provision as we have seen it, there is no funding 
mechanism.
    So those are some of the initial concerns, sir.
    Mr. LaTourette. Ms. Fanguy?
    Ms. Fanguy. I think the other thing TSA is concerned about 
is the level of checks that would be done. We think the checks 
that we have established for the TWIC program are comprehensive 
and really help to mitigate the threats that we have in the 
ports today. Our focus is to keep terrorists and associates of 
terrorists out of the ports. That is why we have the three 
phased series of checks. And we do have a concern if those 
checks are not conducted that we may be introducing a window 
where somebody could take advantage of that and do harm to our 
ports or on vessels.
    Mr. LaTourette. Thank you. As my time winds down, I am very 
sensitive to the observation that you made a number of times 
that we have to get it right. But I can remember after 
September 11 visiting a company, sadly, it is an Italian 
manufacturer but I think they install most of the magnetometers 
now at the airports, it is like CEIA, and on that visit, which 
was four years ago, they gave me a card after I just walked 
through the door and when I walked through their reader my 
picture showed up, my birth date, my biometric information 
showed up. That was four years ago. So I guess the question I 
would have is, understanding you want to get it right, why has 
this program experienced so many delays?
    Ms. Fanguy. In terms of the credential that we are putting 
out for TWIC, I think that it is fair to say that TWIC is 
probably at the forefront of biometric and credentialling 
technology globally. We are not aware of any other program that 
has implemented a biometric credential on this scale in such a 
short timeframe anywhere else in the world. There certainly are 
other cards that are out there.
    One of the things that we are focused on, however, is 
interoperability, making sure that for technology manufacturers 
we do not go with proprietary standards, which is why we have 
gone with the latest standards from NIST that are the most 
advanced Federal Government standards that we have here in the 
United States today, so that we can have an interoperable 
system that will work across all of the ports.
    The other thing that we are focused on is realizing that we 
have over 3,200 facilities, over 10,000 vessels, they all have 
very unique business processes, different kinds of security 
access control regimes in place today. The TWIC card is very, 
very flexible. Some of the other cards that are out in the 
market today are only able to be used in a limited number of 
ways and you have to use proprietary technology. Our card can 
be used in a number of different ways that will hopefully make 
it easier for people once we actually require readers to 
implement it within their legacy access control systems or 
other technology that they may have in place at their 
facilities or on vessels.
    Mr. LaTourette. Thank you. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you, Mr. LaTourette. Mr. Baird.
    Mr. Baird. I thank our witnesses. One of the things that I 
am interested in affects a number of operations in my district. 
These are integrated facilities. In my region we have got pulp 
and paper mills that of necessity have docks with them, so they 
serve as both a port and a manufacturing plant, and they have 
got log yards and sorting yards and whatnot. I cannot imagine 
that they are very high priority targets for terrorists due to 
the location, the nature of the business, et cetera, but they 
employ literally over a thousand people. Only a relatively 
small subset of those people actually work on the docks. The 
rest are in the pulp and paper mill. But it becomes 
prohibitively expensive and impractical to quarantine, as it 
were, the port operations from the rest of the operations, it 
becomes very expensive to do that physically.
    To TWIC everybody who works in the pulp and paper mill even 
though they may not ever get to the port operations seems a 
little silly. How do you deal with a situation like that? We 
all want to support your mission of security but we also want 
to apply some commonsense to this and not impose undue costs or 
burdens on various businesses and employers and employees. Can 
you enlighten us about how we can balance the security element 
with the commonsense element.
    Admiral Salerno. Yes, sir. Regulated facilities are 
required to develop a facility security plan and within that 
plan the facility operator can designate the secure areas of 
the facility. As we have rolled out the TWIC requirements, we 
have encouraged facilities to take another look at their 
secured areas so that they do not necessarily need to embrace 
the entire industrial complex.
    If there is nonmarine-related aspects to their facility, as 
you pointed out, they can be excluded and so that the workers 
in those nonmarine areas would not require TWICs. They can 
define the secured area in whatever way makes sense and it is 
then to gain entry into that secured area as defined by the 
operator that a TWIC would be required. So there is a great 
deal of flexibility there. And there is also an area maritime 
security committee which provides assistance at the port level 
as to what makes sense.
    Mr. Baird. I appreciate that. The experience of some 
industries in my district has been that there is not a great 
deal of flexibility, that the pragmatics of running a 
particular operation, in this case pulp and paper mill, but I 
imagine there are others around the country, do not lend 
themselves to the kind of security that is being mandated. You 
can imagine that there is a fence around the entire pulp and 
paper mill operation, basically, but not necessarily a fence 
around, because it is impractical to do so, around the port, 
per se. Just the way the mill operation works. I have been out 
there several time. The problem seems to be that if you cannot 
install certain physical infrastructure that is required in a 
certain constrained area, then one must TWIC everybody, a 
thousand people, most of whom never get there, some of whom 
have worked fifty years there. You just have to say this does 
not make sense. There is nobody who is going to hijack a pulp 
and paper barge and bring it into this Capital; it is just not 
going to happen. So there is a balancing of risk and 
practicality. It is a little bit analogous to me, I know a 
pilot who had his toothpaste confiscated but he was able to 
carry his gun onboard a flight. It is not maybe that bad yet. I 
just would urge you to adopt some flexibility and rationality 
to this.
    Let us say you do not feel it is a rational process. How do 
you appeal this? Do you have a chance to sit down and have 
cooler heads prevail or somebody work with you, or somebody 
just says no, you have got to fence, everybody has got to be 
TWICed, X cost of money. It does not produce anything 
worthwhile.
    Admiral Salerno. There are mechanisms at the port level. 
The Captain of the Port and his staff that specialize in area 
maritime security matters are a resource to the facilities and 
they can discuss these matters and really come to some 
reasonable and practical solution. It is certainly not our 
intention that everybody at an industrial facility have a TWIC. 
Our intention is that the secure areas of the facility, the 
marine portions would. I am not familiar with the pulp and 
paper industry.
    Mr. Baird. We would love to have you come visit if you want 
to see.
    Admiral Salerno. I will have to do that.
    Mr. Baird. It is quite an operation and it is complex, it 
just does not lend itself easily. And again, we are not talking 
containers coming in from overseas. We are talking barges and 
the chips for the most part, and exports of logs. It is just 
not going to lend itself to loose nukes I would not think.
    Thank you for your time.
    Mr. Cummings. As we move to Mr. Coble, let me just 
interject one thing real quick. Mr. Baird makes a very 
important point. As I have traveled around the country and 
talked to heads of ports, one of the things that they are 
concerned about, and mariners, they really want to work with 
the Coast Guard, as a matter of fact, it is a top priority with 
them, but so often what they find is that when the Coast Guard 
comes in there is no flexibility. This is what they have told 
me in many instances. Some of them will probably as a result of 
the TWIC be changing those secure areas. And you all would have 
to approve that, right?
    Admiral Salerno. Yes, sir. The facility plans are approved 
by the Coast Guard.
    Mr. Cummings. I have raised this issue of some flexibility, 
not going against national security, still maintaining that, 
but coming up with practical solutions. Mr. Baird makes a very 
good point. It just seems as if now we are moving into another 
area where there is no flexibility. Again, I am not saying 
lessening national security. But if there is no flexibility, I 
can see this could be kind of chaotic.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. Admiral, I had to leave 
the hearing room. I hope I am not repeating a question that has 
already been put to you. Let me put a two part question to you, 
Admiral. Would the Coast Guard be able to review application 
for new hires and issue merchant mariner credentials within the 
30-day interim clearance period under the TWIC rules, and does 
the Coast Guard need additional authority to authorize newly 
hired maritime workers to work at a conditional status until 
they receive their MMCs?
    Admiral Salerno. Sir, I think there are a couple of 
questions in there. To obtain the merchant mariner credential 
there will be the requirement that one have a TWIC. And we will 
coordinate very closely with TSA to make sure that the 
communication between databases and agencies occurs in a very 
timely fashion so there is no practical delay once the TWIC is 
obtained in getting the merchant mariner credential. We intend 
to parallel process; you can apply for both simultaneously.
    If I understood the additional question, is there authority 
for interim issuance of a temporary MMD while the primary MMD 
is being processed?
    Mr. Baird. Yes.
    Admiral Salerno. Sir, I believe there is authority for 
that. But I will say that our goal as part of the consolidation 
and restructuring of the licensing and mariner credentialling 
process is to drive the cycle time down so that that would not 
be necessary.
    Mr. Baird. Thank you, Admiral.
    Admiral Salerno. We will make that as quick as possible.
    Mr. Coble. Ms. Fanguy, under current law, applicants who 
are denied a TWIC may appeal a decision of the TSA, or in the 
case of a person who is disqualified from receiving a TWIC 
because of a prior conviction of a disqualifying crime may 
request a waiver. Will an individual automatically be denied a 
TWIC because of a prior conviction for an interim disqualifying 
offense, or will the reviewer take into account the 
circumstances related to that specific offense?
    Ms. Fanguy. In terms of the interim disqualifiers, our 
adjudicators will look at the time that has passed since the 
date of incarceration as well as the time from the date of 
conviction, and if either one of those dates is within either 
five years from the date of incarceration or seven years from 
the date of conviction, the person would receive an interim 
determination of threat assessment. At that point the person 
has the opportunity to apply for a waiver. And we highly 
encourage people to apply for a waiver if they do fall into 
that category so that they can provide more information so that 
we can make the determination that they do not pose a threat. 
And if that is the case, we would provide them with a TWIC.
    Mr. Coble. Mr. Chairman, I am by no means trying to open 
the door to invite felons aboard. But I guess I am looking for 
some flexibility. If the offense is not related to terrorism or 
safety or security, I can see some flexibility might be in 
order there.
    Ms. Fanguy. In our waiver process, we certainly look at all 
the information that is provided. One thing is time that has 
passed, evidence that the person has been rehabilitated.
    Mr. Baird. Yes. That is where I am coming from.
    Ms. Fanguy. References. We try to be as flexible as 
possible and taken into account all of the information that the 
person provides to us.
    Mr. Coble. Thank you both, Admiral, Ms. Fanguy. I yield 
back, Mr. Chairman.
    Mr. Cummings. Thank you very much, Mr. Coble. Mr. Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman. This hearing on 
transportation worker identity cards is a very important matter 
for our Committee and for the maritime community. I appreciate 
very much your pursing this matter, and I appreciate the 
support of Mr. LaTourette and his questions and line of 
inquiry.
    I will depart from the regular order for a moment, Mr. 
Chairman. In addition to all the distinguished Members and 
witnesses participating today, I would like to note the 
presence in our hearing room of a former colleague, a former 
member of the Merchant Marine and Fisheries Committee with whom 
I served for many years, and a Member of this body, former 
Congresswoman Helen Delich Bentley, a strong advocate for the 
merchant marine, former maritime commission member, and whose 
zeal for the Jones Act and Buy America is equaled or maybe 
exceeded only by that of Mr. Taylor. So we thank Ms. Bentley. 
She is a regular participant at our hearings.
    I have to say, Admiral and Ms. Fanguy, it is frustrating 
that we are five years from enactment of the Maritime 
Transportation Security Act and we still do not have this 
transportation worker identity card. More troublesome is that 
there really is not an effective alternative program in place 
that has met the purposes of the Act and one that has engaged 
the support of the maritime community.
    I understand all the complexities of developing this card. 
I understand all the difficulties you have in doing the 
background checks. I have been involved with this since Pan Am 
103. I served on the Pan Am 103 Commission. I was Chair of the 
Aviation Subcommittee at the time. That was our commission that 
made recommendations for background checks for airline workers, 
not only pilots and flight attendants, but the ground crews and 
all those who service airports. And we had an extremely 
difficult time getting regulations adopted and practices put in 
place. But eventually it happened.
    Now you should have been able to learn from the experience 
of aviation and put in place practices and technologies--good 
Lord, we are the land of technology--to establish this card, 
establish the background checks. These are not new issues. We 
have confronted them before and dealt with them in the aviation 
sector. I know Chairman Cummings has already quoted the 
President's 2004 State of the Union message that America is the 
land of second chance. The gates of prison open a path ahead 
that should lead to a better life. We know that the waterfront 
is not a particularly savory place. It is a rough and tumble 
environment. People have incidents.
    Staff Member. People like me.
    Mr. Oberstar. People like you? I do not know, you did not 
get much rough and tumble there. You came out of it pretty 
clean. But I would hire you on.
    [Laughter.]
    Mr. Oberstar. That is why we hired you on this Committee to 
help us with Jones Act. We need guys like you, Mr. Taylor.
    So there may be explanations, but I do not find a valid 
excuse for the failure to develop programs to keep felons out, 
to stay within the purposes of the Act, and to follow the 
purpose of the law that an individual can be denied only if the 
Secretary has determined that person to be a terrorism security 
risk or was convicted of treason, espionage, sedition, 
terrorism. I do not think that is terribly hard to establish 
background checks for that. We did it in aviation going back 
ten years. We had trouble with foreign airlines and foreign 
repair stations and maintenance facilities outside the United 
States and with domestic repair stations in the U.S., they did 
not want the application of those provisions. But what is the 
difficulty? What is the problem in complying with the law? Ms. 
Fanguy?
    Ms. Fanguy. We definitely have taken the lessons learned 
from aviation. That has been very important to us. In looking 
at the disqualifying offenses for the TWIC program, the 
disqualifying offenses that we have now in our regulation are 
actually based on the felonies that are in the aviation 
statutory language. Other lessons learned have been taken from 
our prototype program where we went out to a number of select 
ports and issued prototype TWICs. Some of the technology has 
changed since the prototypes took place. We want to be in 
alignment with the latest and greatest technology that America 
has to offer and that is where we are going in order to begin 
enrollment this fall. We think it is important to make sure 
that the system is going to be able to support the large 
volumes of workers that we are anticipating enrolling in the 
next year or so. We anticipate to have over a million people. 
In comparison, in our prototype program we enrolled in one year 
the same number of people that we will enroll in one day of 
TWIC. So the scale for the TWIC national rollout is 
tremendously greater than what we had during the prototype.
    For the security threat assessment aspect, we are certainly 
basing it on the lessons learned. But we want to make sure, 
again, that in terms of the volumes we are able to plan for the 
large number of people who are going to be coming through not 
just our system but other systems within the TSA and elsewhere 
within the Federal Government. And so that takes planning and 
setting up of equipment. We are well underway with that but we 
want to make sure that we can handle the volumes and make sure 
that we can provide a secure credential that will protect 
people----
    Mr. Oberstar. Have you tested a card? Have you tested a 
background check against an individual? Have you put it in the 
marketplace and run real life people through the process?
    Ms. Fanguy. That is what our prototype focused on. We took 
information from the people and we gave them a card. We are now 
in the process----
    Mr. Oberstar. And what problems did you find?
    Ms. Fanguy. We had a lot of lessons learned that were very 
valuable and we have----
    Mr. Oberstar. For example? Give me an example?
    Ms. Fanguy. Flat versus rolled fingerprints. Critical 
piece. Makes it very inconvenient for people. Rolled 
fingerprints take a much more trained enrollment agent and you 
do not get tremendously better results when you do flat slap 
fingerprints. We tested out both methods during our prototype. 
We are now doing ten print flat fingerprints that we then send 
to the FBI to do our checks. It makes the enrollment time much 
quicker, much more convenient for people, and it makes it so 
that we can actually make the card cheaper because the training 
aspect is not as great.
    Mr. Oberstar. And how many people have you run through the 
prototype program?
    Ms. Fanguy. One of the other things that we found that was 
critical was pre-enrollment.
    Mr. Oberstar. Say again.
    Ms. Fanguy. Pre-enrollment. So we provide a website where 
people can go and provide their basic biographic information 
and they can schedule an appointment. That helps us to plan our 
resources. That helps to keep down lines at the centers and it 
also helps us to plan how many people to have.
    Mr. Oberstar. Have you worked with the longshoreman's union 
and with the barge operators, and with the coastwise trade 
operators?
    Ms. Fanguy. That is another lesson learned, too, is 
communication. So we have actually established a TWIC 
stakeholder communications committee. We had a meeting 
yesterday.
    Mr. Oberstar. That was a major problem in aviation. They 
never talked to the airlines, they did not talk to the unions, 
did not talk to the ground workers, did not talk to the fuel 
handlers, or anybody. They just went ahead with the program and 
then it failed because they did not talk to those who were on 
the ground. So I am glad to hear that you are doing that.
    Are you coordinating with the Coast Guard? Admiral, are you 
in touch day-to-day, in lockstep with TSA on this process?
    Admiral Salerno. We are, sir. And we do participate in the 
stakeholders meetings as well. I think before you arrived, sir, 
I mentioned that we do have advisory committees with whom we 
interact; the merchant marine personnel advisory committee, 
national maritime security advisory committee, transportation 
safety advisory committee. All of whom we have engaged on the 
way forward, especially with TWIC readers, as to what will be 
reasonable and practical. But we are very much concerned about 
obtaining the input and advice of the industry stakeholders in 
this process.
    Mr. Oberstar. What about the background checks. What issues 
do you see, have you seen, both of you, in background on 
individuals and distinguishing the classifications that we have 
established in law--terrorism, security, risk?
    Ms. Fanguy. In terms of the security threat assessments, we 
are actually basing our security threat assessment program on 
our hazardous materials endorsement program. To date, we have 
conducted over 600,000 security threat assessments for 
hazardous materials endorsement drivers. The checks are the 
same. So we have been able to prove out the process for getting 
the information, feeding it out to the various Government 
agencies who provide us then information to come back.
    We have also been able to prove out our adjudication 
process where we have trained adjudicators who look at all that 
information to determine if there is a security threat 
assessment or not. So we are trying to base this on lessons 
learned from other programs that have been successful and 
continue to refine the existing programs as well as the TWIC 
business model to make sure we have improvements along the way.
    Mr. Oberstar. When do you expect to have this 
identification card operational?
    Ms. Fanguy. We would anticipate that we would begin 
enrollment in Wilmington, Delaware, in the fall.
    Mr. Oberstar. This fall?
    Ms. Fanguy. That is correct.
    Mr. Oberstar. That is a long period of time, three or four 
months depending on where you live in this country. Fall is a 
shorter time in Minnesota, a longer time out here on the East 
Coast.
    Ms. Fanguy. I certainly understand that. We can get back to 
you with a more detailed schedule. But right now we are focused 
on the testing. The testing process, the way that we go about 
it is there are five key components to the TWIC systems and so 
we need to test each one of those pieces in and of themselves, 
make sure that those all work. I had mentioned the pre-
enrollment website. That is one piece that we are very near 
completion on testing. But then the next piece is the 
enrollment work station. We are very near completion on the 
testing of that. We can then hook those two pieces together, 
make sure that the data from pre-enrollment goes into the 
enrollment workstation so that a trusted agent can complete an 
enrollment. Then we have the three other pieces to send the 
data for our security threat assessments and actually produce a 
card at the end. We need to finish testing on all five of the 
key components before we can send the data through end-to-end 
to make sure that we have a solid business model in place and 
to make sure that all of the data can flow through the system 
and produce a good card at the end.
    Mr. Oberstar. I, for one, and I am sure Chairman Cummings, 
Mr. LaTourette, and other Members of the Committee would like 
to have a visual hands-on observation. Our worst nightmare is 
that innocent person who is kicked out because they did not do 
the proper review of the background check or they confused the 
name with somebody else and that person is then out of work for 
no good valid cause. I know that it takes time to set up a 
program to do those things properly. But that is our worst 
fear.
    I will suspend there, Mr. Chairman. I regret my late 
arrival. I was on a highway coming in here behind a two car 
accident for the last hour.
    Mr. Cummings. Thank you very much, Mr. Chairman. As we move 
on to Mr. LoBiondo, I hope you are understanding what is coming 
out of the Committee, Ms. Fanguy and Rear Admiral. We see, and 
I know you do, too, the practical side of all of this. As Mr. 
Oberstar said, somebody being possibly put out of work, unable 
to make their mortgage payment, unable to do the things that 
they need to do for their kids or whatever, that is real. So we 
want to make sure that this thing is done right.
    And I was just wondering, one quick follow-up to Mr. 
Oberstar, as I listened to the process, you said five steps, do 
you see any way that you would publish regulations for the 
readers before the pilot is finished?
    Admiral Salerno. Sir, our intention is to follow the 
provisions of the SAFE Port Act, which would require that we 
take into account the results of the pilot in the development 
of the regulations for the readers.
    Mr. Cummings. So you are telling me that when that pilot is 
finished and not until then will we see the final regulations; 
is that right? Because I am going to hold you to it.
    Admiral Salerno. Sir, I do not have a time line for you. We 
are beginning work on----
    Mr. Cummings. No. Wait a minute. Hold on. This is not about 
a time line. This is one simple question. I just have got to 
have the answer to this. What I am asking you is not 
complicated. Ms. Fanguy just talked about a process, a pilot 
process. All I am asking you, I am not asking for the time 
line, I will get to that some other time, is you are not going 
to issue regulations until that pilot is complete. It is not 
complicated.
    Admiral Salerno. We are beginning the process now of 
gathering information for the regulations process. But sir, if 
I could just say, our intention is to gather information from 
that pilot process to include in the regulation process. But I 
can get back to you with more details on that. I have not 
looked ahead as to the time line for the regulations yet.
    Mr. Cummings. Mr. LoBiondo.
    Mr. LoBiondo. Mr. Chairman, thank you very much. I am 
trying to find the right words to say how I feel about all of 
this. Extremely frustrated does not quite get it, but that is 
probably as far as I will go at this point with the delays and 
continued problems that TSA is having deploying the TWIC card. 
Over the last couple of years we have held hearings. We had 
Secretary Baker here last March. Mr. Baker sat there, was not 
able to give us any explanation of the delays. The law was 
passed, the Maritime Transportation Security Act, five years 
ago that mandated this. It seemed like either it was not a 
priority or someone did not care. We were assured that is not 
the case. We are back here again today. And as I am listening 
to all of this, almost as strong a feeling as I have about the 
outrage and the frustration of the delays is that since TSA has 
gotten so very little right, when you do roll this out the real 
world and the people who have to live with this everyday, and 
we are going to hear from the second panel about this in great 
detail, are going to have some great obstacles to overcome.
    I, like the Chairman and the other Members of the 
Subcommittee, and Mr. Oberstar, we are trying to be patient and 
understand that you are trying to get it right. But we are five 
years later and there is a limit to this. And when you do 
finally roll this out, I hope you realize that there is no room 
for any excuse of why it does not work. And for someone, if we 
have that problem, to come up here and tell us why everyday 
people who are going to be affected by what you do are 
incredibly screwed up because something was not done right is 
just not going to be acceptable.
    I just have a couple of questions. How does the TSA intend 
to deal with the day laborers and other workers that are not 
terminal workers but need unescorted access to the facility to 
perform sporadic maintenance or construction?
    Ms. Fanguy. I will actually defer to the Admiral on that. 
The Coast Guard is responsible for defining who needs a TWIC 
and where.
    Admiral Salerno. Sir, we have some provisions in our draft 
guidance for periodic workers that can be either escorted or 
accompanied, and there are some thresholds for the numbers of 
workers that could be monitored in a work area. But the 
intention is that if they are frequent workers, people who come 
into a facility on a daily basis or several times a week and 
enter into secure areas, our expectation is that they would 
have a TWIC. So there are provisions for the occasional 
workers. They would not be unescorted or unmonitored, however.
    Mr. LoBiondo. So if you have got a construction project 
that is a six month project or a twelve month project but that 
is all, then how are those folks going to be dealt with?
    Admiral Salerno. That is something, sir, that we would 
probably have to address almost on a case-by-case basis. I do 
not know that we have addressed that specifically in our 
guidance. We have addressed the occasional worker but certainly 
the situation you described I think would probably require a 
specific policy statement.
    Mr. LoBiondo. We understand that DHS is now starting to 
develop the regulations governing the installation of the card 
readers. When does DHS plan to publish the rulemaking?
    Admiral Salerno. Sir, we do not have the time line for the 
publishing of the rulemaking as yet. We are beginning the 
process of developing the regulation. And just to clarify the 
question earlier. Part of the process is the pilot projects 
that are beginning this summer. We will not publish the final 
rule until the information is received from the pilot. But we 
are beginning the process of developing the information for 
that rulemaking now. I do not know if that clarifies your 
question earlier, sir. We will have the pilot information 
before the final rule is published.
    Mr. LoBiondo. That leads me, Mr. Chairman, to the last 
question. I think the last question. Several ports have receive 
port security grants to install the TWIC readers. Will their 
projects be integrated into the TWIC reader pilot program?
    Ms. Fanguy. I can address that. Absolutely. We have been 
working with a number of parties who received port security 
grants. LA and Long Beach are a good example. We have also been 
working with the Port Authority of New York and New Jersey to 
look at doing a pilot there. Additional port security grant 
recipients have been identified who we plan on approaching to 
see if they would like to be a participant in the pilot of the 
readers. But that certainly is our approach.
    Mr. LoBiondo. How are you going to do that? How are you 
going to integrate them into the pilot program?
    Ms. Fanguy. Our plan would be to work very closely with the 
various stakeholders to look at their particular access control 
systems that they currently have in place and then look to see 
how TWIC readers would be implemented within their facility or 
on their vessels. So we will work very closely with them. Our 
overall goal in the pilot is to implement technology that we 
would hope would actually work when the final regulations are 
in place. So you would hopefully not have to go out and buy new 
equipment. You would be able to reuse the equipment that we 
installed during the pilot process.
    Mr. LoBiondo. Normally, the word ``hopefully'' would not be 
troubling. In this case, it is. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you. As we move on to Mr. Larsen, just 
a quick question. Admiral, you tried to answer my question but 
you did not answer it. I was not going to come back to it, but 
I have got to ask you, and I will tell you it is frustrating 
and I would not want to be in your position and not be able to 
answer this question. Let me try to put it to you real 
succinctly. There is a pilot process.
    All I am asking you is will the card reading regulations be 
published after that process is complete? What you answered was 
that you will get information. That does not answer my 
question. I am not asking for a time line. I am just asking you 
a simple question. You have got people in this audience who are 
dependent upon how you all deal with this. They want to know 
what they can expect. And we would like to know. Do you follow 
what I am saying?
    Admiral Salerno. Yes, sir. The final rule----
    Mr. Cummings. Let me do it this way. This is the end of the 
process, okay? This is the regulations. I am just asking you 
one thing: Do the regulations come out over here, or do the 
regulations come out over here?
    Admiral Salerno. The regulations come out after we have the 
data from the pilot process.
    Mr. Cummings. Is that after the pilot is complete? That is 
the question. Do not forget, this is completion. Is it over 
here, this is before, or is it after?
    Admiral Salerno. Yes, sir. It is after the pilot project is 
complete and we have the data.
    Mr. Cummings. Fine. I just wanted to know. The completion 
of the project. I know you will get the data. I just wanted to 
know whether it is after or before. And you have answered me.
    Admiral Salerno. It is after.
    Mr. Cummings. All right. Thank you. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I would just disagree 
with my colleague from New Jersey, Mr. LoBiondo. I have 
actually run out of patience. I do not have any more patience. 
We are dealing in Washington State with the Western Hemisphere 
Travel Initiative as well as this and when you look at the 
delays in this and the problems that we are having in the WHTI 
program, it reminds me of Chris Berman calling a long run on 
ESPN football highlights about people rumbling, stumbling, and 
bumbling down the field. That is how this all sounds to me. And 
the reason that we do not do this very well is because do not 
invade citizen's privacy very well in America. That is why we 
have problems with this and it should tell us something about 
how we do these kinds of things and how far we are going to try 
to meet security needs. We go so far that the only way to do it 
is to invade citizen's privacy. And there are some questions 
that I have with regard to that.
    Ms. Fanguy, have you ever tried to get off a ``No Fly'' 
list?
    Ms. Fanguy. I personally have not.
    Mr. Larsen. Do you know anybody who has?
    Ms. Fanguy. No.
    Mr. Larsen. Okay. I have been working with two folks in my 
district who have. There is no reason in the world why they 
ought to be on a No Fly list, and yet they are. So if, in that 
example, someone was on the TSA No Fly list, the appeal, so-
called appeal, if it went to Admiral Salerno's office or folks 
at the ALJ in Baltimore if you are a maritime worker, it would 
not be 30 days, it would not be 90 days, it would be forever in 
the appeal process.
    Admiral Salerno, have you ever dealt with an appeal of 
somebody trying to get off the No Fly list or any select T 
list?
    Admiral Salerno. No, sir, I have not.
    Mr. Larsen. Well, feel lucky. If anybody applying for a 
TWIC happens to be on a No Fly list or a select T list for no 
apparent reason, they might as well be in Franz Kafka's ``The 
Trial.'' They are going to be lost forever in that process to 
get off that list and never get a TWIC card, ever.
    Seasonal workers, the issue of seasonal workers is 
important because seasons differ depending on where you live in 
this country. I imagine Florida's seasonal worker season is a 
little longer than Alaska's, for instance. And the fishing 
fleet in Alaska is based in Alaska and in my State in 
Washington State and you have a lot of seasonal workers who 
fish just for the season. You know, they fish, go into port, 
offload, go back out, and so on.
    I am just curious if that would be a kind of worker who 
needed a TWIC card because they are going to be accessing a 
portside for delivery before they go back out. And if they are, 
how does it apply to that seasonal worker where the season is 
maybe two months long, maybe a month and a-half long, including 
my nephew, who I am sure has got no problem getting a TWIC card 
but I am sure there are folks up there who might have problems 
getting a TWIC card. Have you considered the idea that seasons 
are different depending on where you are in the country, the 
length of a season for a seasonal worker?
    Admiral Salerno. Sir, what we have considered is the need 
for people to get to work quickly, and we realize that that 
affects seasonal operations. The regulations themselves do not 
pertain to seasons, per se, they pertain to getting people to 
work quickly. One clarification may be not all vessels require 
a TWIC. Only those that are regulated by MTSA, Maritime 
Transportation Security Act, really come under this body of 
regulation that would require a TWIC.
    Mr. Larsen. Not every fishing vessel is 12 feet long, 
either.
    Admiral Salerno. That is correct. They would not be 
regulated under MTSA in all likelihood.
    Mr. Larsen. Okay. What do the regulations say about those 
folks who have been convicted but exonerated?
    Ms. Fanguy. I would need to get back to you with the 
specific details. However, in terms of our overall process, one 
of the differences from the No Fly list that you had talked 
about was that we do a pretty comprehensive series of checks. 
We get a fair amount of data back based on the application 
information. That allows us, in the case of somebody's criminal 
history, to look at the full information. I would have to get 
back to you on the exoneration. But we would have the 
information available to us. If their record has been expunged, 
we would take that into account and make the determination 
appropriately. But we can get back to you with more details on 
your specific question.
    Mr. Larsen. If you could do that. Because there is nothing 
in my notes or even the GAO report of April that talks about 
conviction but exoneration. It strictly talks about conviction.
    If I could, just one more question. This has to do with the 
contractors issue that I think Mr. LoBiondo brought up. I have 
four refineries in my district, all of which have piers, all of 
which at points throughout time obviously need repair. At any 
one time at these refineries they might be employing 800 
people, some of whom have to work the pier, some who do not, 
but then they have on any one day 100 to 200 contractors on 
site for maintenance, some of which is strictly doing classic 
refinery maintenance, some are actually doing piers.
    For those contractors, if they were down doing pier work, 
would they have to get a TWIC for the time they are doing pier 
work, since they might be interacting with oil tankers? I 
imagine oil tankers are on this list of vessels.
    Admiral Salerno. In a construction or a repair case like 
that, in all likelihood they could wall that off from the 
secure area so that the workers would not need a TWIC.
    Mr. Larsen. The workers may not, but if the contracting 
crew was down on the pier doing maintenance work?
    Admiral Salerno. You are talking about a specific project 
to do maintenance work?
    Mr. Larsen. Right.
    Admiral Salerno. That can be, if it is a sustained thing, 
they could in all likelihood wall that off, with the approval 
of the Captain of the Port. If it is an occasional worker that 
comes down once a month to do maintenance work or something 
like that, it may be a little bit different story where the 
worker is escorted. It may depend somewhat on the scenario. But 
for construction, major projects there is a provision where 
that can be walled off.
    Mr. Larsen. Okay. Thank you.
    Mr. Cummings. Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Thank you both for being 
here. I represent southeast Texas, the Sabine-Natchez riverway 
that divides Texas from Louisiana. On that riverway is the port 
of Beaumont and the port of Port Arthur. The port of Beaumont 
is the number one deployment port for shipping military cargo 
to Iraq. Along the riverway are numerous refineries including, 
soon to be the largest refinery in the United States, the 
Motiva refinery. We have small shippers who take crews out to 
the oil platforms. We have the refineries, we have the port. So 
I have several questions.
    First of all, Admiral, I want to commend the Coast Guard on 
the way they secure the riverway, even using up to half of 
their personnel or reservists all the way from Minnesota.
    But be that as it may, my concern is the fact that once 9/
11 happened the refineries did not wait for the Government to 
come in and tell them to secure their refineries. Now they are 
under the control of the Department of Homeland Security. They 
have a model that is working. Many times these chemical plants 
require as many as 800 to 1,500 employees within 24 hours 
notice to show up and do repairs. During Hurricane Rita, which 
people do not talk much about, it came up the Sabine-Natchez 
riverway. Those refineries closed for the first time in 
history, up to 25 or 30 years. And yet, they did not wait for 
FEMA to show up. They started working and repairing those 
refineries as soon as they could.
    Under the TWIC program, how long would it take to get these 
new employees screened before they could repair damages to 
refineries? When these refineries went down gasoline prices in 
the United States went up 20 percent during that period.
    Admiral Salerno. Sir, there is provision where they could, 
again, wall off areas that would need special construction or 
repair. But also on a day-to-day basis, the facilities have the 
option of redefining the secure areas on the facility to limit 
it only to the marine portions of the facility. So that not 
everybody who goes to work at the refinery would necessarily 
need a TWIC, only those who have access to the marine portion. 
So there is a day-to-day component and the emergency component, 
as you pointed out, where that could be just walled off within 
their security plan, in consultation with the captain of the 
port.
    Mr. Poe. Under Department of Homeland Security, these 
refineries and the chemical industry are already under a 
screening process that seems to work very well. No one wants 
refineries with personnel that are any potential threat. And 
chemical companies along the channel here say it is working 
well. Why now do we have to have another system that will 
override this current system that seems to be working? Why do 
we not use the same system that is currently working? I ask 
that of either one of you.
    Admiral Salerno. Sir, I am not familiar with the other 
system that you are referring to.
    Mr. Poe. Well the Department of Homeland Security accepts 
screening processes by private contracting companies and they 
can have a turnaround very quickly on whether this person 
coming onto this plant is qualified, whereas TWIC will take 
however long, weeks.
    Admiral Salerno. As far as access into the marine portion, 
I am not acquainted with the other vetting process that you are 
referring to, other than we did perform an interim vetting. 
Approximately a year or so ago, we began that process for 
regular workers at marine facilities. This was done in 
conjunction with TSA where we took names of employees and 
vetted them through a database and then, in consultation with 
the facilities, provided feedback. I am not sure if that is the 
process you are referring to.
    Mr. Poe. The chemical plants have a system that works when 
they contract out to private screening industry that has a 
turnaround relatively quick. They have two types of employees 
at these chemical plants. They have people who have been 
working there for 30 years, same job, and then they have 
contract laborers that come on on a regular basis to the 
chemical plants. They have both of these types of people coming 
on and they already have been screened under a process. Under 
TWIC, will all of these people have to be rescreened and have 
the delay of two or three weeks before they get this new TWIC 
card? My concern is we have a system that works according to 
the chemical companies and DHS, why are we trying to develop 
another unproven system to take precedence over this?
    Admiral Salerno. For access to the marine portion, sir, 
under the current regulations, they would need a TWIC. I would 
have to get back to you on the other method that you are 
referring to. I am not familiar with it.
    Mr. Poe. Can TSA help me out here?
    Ms. Fanguy. I am not familiar about the private companies. 
But I do know that the checks that we do and the access to the 
information especially as it relates to terrorism is something 
that private companies would not have access to. So the TSA has 
access to a number of the different Watch Lists and information 
from law enforcement as well as intelligence that we feel is 
critical to keeping terrorists out of the ports and off of 
vessels.
    Mr. Poe. Last question. Has there been any work with 
Department of Homeland Security that approves these methods at 
chemical plants with TSA to merge the process? Have there been 
discussions between Department of Homeland Security and TSA on 
this issue of chemical plant security?
    Ms. Fanguy. I can say that the chemical plant program 
within the Department of Homeland Security has been working 
closely with TSA so that we can take the lessons learned from 
doing security threat assessments that we do with MTSA for the 
aviation mode, hazardous materials endorsement, and other 
programs and apply that to the national program for the 
chemical plant workers.
    Mr. Poe. So is that a yes?
    Ms. Fanguy. There have been talks, yes.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. Admiral, let me begin 
by saying I have got to express some concern that the folks you 
hired to do this are the same folks who did not think you 
should have waterproof radios, or waterproof radars, or 
waterproof GPS on the exposed bridge of your 110 foot cutters 
when they were modified. I would hope that someone, based on 
those mistakes, is looking for some very obvious things that 
are getting fixed before we have 60 Minutes show us our 
mistakes again.
    Turning this over to contractors really makes me question. 
Just last week, I guarantee, up in New London you had about, 
what, 500 bright young people from all over the country show 
up, the Nation is going to spend a small fortune to educate 
them, you are going to send them to sea, they are going to get 
better at what they do. Why the compulsion to contract out 
everything?
    Quite frankly, I look at this $137 fee, for a Congressman, 
nothing, but for somebody just out of high school, somebody who 
is in a jam, someone who needs to get a job in a hurry and the 
waterfront becomes available, that is a sizeable amount of 
money. I have got to believe that money is not going to the 
Treasury. It is going to go to the contractor. I have noticed 
where you have got a fee in there for somebody who has already 
got merchant mariner documents. So to just take a background 
check that has already apparently been done and rubber stamp 
it, a guy has got to pay another $100? Again, for an Admiral or 
a Congressman, not that big a deal. For somebody who is in a 
financial jam that is a lot of money. And again, I do not think 
it is Treasury-driven. I think it is contractor-driven. We have 
been burned by some of these contractors already. So I have got 
to ask, where is the commonsense there?
    What I am seeing is you are going for a 100 percent 
solution and in the meantime you are not even doing simple 
things like checking driver's licenses. I have got to believe, 
and Congressman Larsen agrees, that probably 95 percent of the 
people who walk through these doors already have a driver's 
license. And amongst the 5 percent who do not are people who 
have probably done something really stupid that required them 
to forfeit their driver's license. Maybe that ought to be a red 
flag right there that you have got a problem.
    So what is the Coast Guard, what are smart guys like you 
doing to try to reign this in and bring some commonsense to it?
    Second question. Most of the folks work offshore, 7 on, 7 
off, 14 on, 14 off, 30 on, 30 off. So the time they have ashore 
is really precious. And unlike a Congressman, they do not have 
a staffer to say go get this. They have got to do it 
themselves. So if they are out trying to get these documents, 
it is days they are not working, they only get paid when they 
work. What are you doing to keep that in mind? And again, some 
things just ought to be abundantly simple. If a guy walks to 
you with a reservist i.d. card, a driver's license, and wants 
to go to work as a longshoreman, I would think that ought to be 
good enough right there for him to get an immediate document. 
So walk me through the commonsense efforts that are being made 
on the part of the Coast Guard to reign in the contractors, to 
bring some sense to all of this.
    Then I see the waiver that you have issued or at least you 
are talking about that says in the event of a national 
emergency, in effect, you can waive the Jones Act. Let me tell 
you what troubles me about that. I was just at Camp Shelby, 
Mississippi, where they are training people to go to Iraq. One 
of the drills they go through is they blow up a fake IUD under 
one of the vehicles to watch them react and then they blow up a 
second IUD because the first one was just a trap. If in the 
event of a national emergency we are going to waive the Jones 
Act, does that mean you are going to let a whole bunch of 
foreign ships in that you normally would have checked? Does 
that mean you are going to let a guy like me who does not have 
a merchant mariner document work for a little while because it 
is an emergency and you just need to throw guys into the breech 
but guys you know who are Americans?
    What exactly does that waiver mean, and are you qualifying 
that in some way? Yeah, it is an emergency, you have got to get 
stuff done. You will take people who have got an American 
driver's license, you have got guys with a social security 
card, guys who may be naval reservists, let them go work on a 
tug for a while even though they do not have their merchant 
mariner documents. Or does it mean you are going to let a 
battled of Hondurans or El Salvadorans or whatever just come on 
in unchecked?
    Admiral Salerno. Sir, a couple of questions there. Let me 
see if I can get them all. Certainly, for access to a 
facility----
    Mr. Taylor. Let us start with the common sense with the 
contractor and reigning those guys in. Because that is not a 
what if, they really did happen and it burns me to this day.
    Admiral Salerno. If you do not mind, sir, I may have to 
defer to Ms. Fanguy on that since the contract is administered 
by TSA. I will see if I can answer your other questions. There 
is a provision for Government-issued identification to be used 
as access to facilities, such as a military i.d. or law 
enforcement credential when the individual is acting in a law 
enforcement capacity. So that provision is there.
    Mr. Taylor. Okay. All right. So why should that guy who has 
already got that who wants to upgrade to this card, why should 
he have to pay $100? That background check has already been 
conducted.
    Admiral Salerno. The background checks are a little bit 
different, and Ms. Fanguy can explain that probably in more 
detail. But the TWIC requirement would be for people operating 
in a commercial capacity. If someone is going onto a facility 
in an official capacity, has official identification, that 
official i.d. would suffice.
    Mr. Taylor. Okay. But according to this lady's testimony, 
if you have already got a merchant mariner's card, you still 
have got to pay, what, $125 to get it upgraded to a TSA card. 
That is nuts. That is literally somebody just raking in a bunch 
of money for doing almost nothing. That is not fair and we 
should not be about doing unfair things.
    Admiral Salerno. Roger for the concern, sir. It is 
something that has been the subject of a great deal of 
discussion as to how the price can be brought down as much as 
possible throughout the rulemaking process. And a lot of 
interaction with the affected industry as well. And we did hear 
that concern loud and clear.
    The issue that I know TSA was up against was the program 
has to be self-sustaining. So with the work through their 
economists and figuring out what things would cost, that is 
about as low as they could get the price based on the cost 
predominantly on the background checks. The actual cost of 
producing the card is not that great. It is the cost of a lot 
of the work that goes behind it. Maurine can fill in some of 
the details.
    Ms. Fanguy. Yes. In terms of the reduced fee for, as the 
example that you mentioned, mariners, we really look at the 
overall cost of running the program. It is not just the 
security threat assessments, it is collecting the data and then 
actually doing the document authenticity verification. So we 
have checks at the upfront that when somebody presents an MMD, 
we want to make sure that that is a valid MMD and that it is 
not a forged document. Because we are then going to be giving 
somebody a credential that will grant them significant 
privileges in having unescorted access to secure areas.
    So we want to make sure that we are doing those checks at 
the upfront to make sure that the people's information is 
correct. After we get that information, we do not do redundant 
checks if somebody already has the same kind of security threat 
assessment. So an MMD holder, we would not reconduct those 
checks, a Hazmat driver, nor a FAST cardholder.
    But there is a lot of work that goes on after somebody has 
actually applied. A card is good for five years. We continue to 
check people's information during that time to. If somebody has 
no ties to terrorism on the day they apply for a TWIC, they are 
going to get a TWIC. If in two years from now we have 
intelligence that indicates that person may have ties to 
terrorism, we need to know that so we can rescind their TWIC 
and go out and find that person. And so that is one of the 
aspects that actually costs money and that has been included in 
the fee for both the standard TWIC fee as well as the reduced 
TWIC fee is those redundant checks.
    There is also the cost of actually producing the credential 
itself. And as I talked about, it is a fairly sophisticated 
credential. So we need to be able to pay for the manpower in 
the Government facility that actually prints those cards, the 
card stock itself, and the card has a lot of security features 
in it just with the way we print it, there is laminate and 
holograms and the electronic pieces as well. And as the Admiral 
said, we have tried to reduce the costs as much as possible, 
and it is certainly something that we are very mindful of going 
forward and trying to be frugal with the program while still 
making sure that we have the right security controls in place.
    Mr. Taylor. Who gets the money? Does the contractor get the 
money?
    Ms. Fanguy. The contractor does not get all of the money. 
The contractor gets----
    Mr. Taylor. Who helped determine the cost? The same folks 
who said we do not need waterproof radios?
    Ms. Fanguy. Absolutely not. The Government was responsible 
for developing the regulations including the fee model. We put 
that out as part of our Notice for Proposed Rule Making where 
we had to lay out what all of our anticipated costs were. At 
the time that we developed our regulations, we actually did not 
have a contractor on board at all, so they were not at all 
involved. The Government was solely responsible for developing 
the overall fees.
    Mr. Taylor. And who made the decision to contract this out? 
Because I have got to tell you, everything I see the Department 
of Homeland Security doing is almost always contracted out and 
is almost always screwed up, whether it is the Federal Flood 
Insurance, whether it is FEMA, or whether it is this. You guys 
do not have a very good record of performance. And in almost 
every instance you have contracted out what should be a core 
governmental function.
    And so I want to know, who made this call? Was it mandated 
by Congress? Was it mandated by the Administration? Did someone 
within the Department of Homeland Security say this is the way 
we are going to do it? Who made that call? I doubt you made it. 
So who made it?
    Ms. Fanguy. The Government made the decision to establish a 
competitive process----
    Mr. Taylor. No. Who? The Government is a big thing.
    Ms. Fanguy. The Department of Homeland Security made the 
decision to compete this. We did this in a competitive manner 
where we put this out to industry in a full and open 
competition. We received bids back from numerous companies who 
offered to do enrollment and manage our systems. If you look at 
the overall scope of the work that needs to be performed in the 
coming months, we are going to be bringing on a significant 
number of contractor resources, as you mentioned. So the 
overall number of resources and the types of skills that are 
necessary meant that we needed to compete this and get the best 
qualified contractor to perform the work.
    Mr. Cummings. We are running out of time. We have four 
minutes before the vote.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Cummings. We have three votes. We are going to come 
back here at a quarter after twelve.
    To our witnesses, I want to thank you very much for your 
testimony. I must tell you that this has been extremely 
frustrating. I am going to bring you back in 90 days to let us 
know where you are. In the meantime, we will be submitting some 
questions and trying to get from you some time lines so we will 
know where we should be in 90 days so that we will have 
clarity.
    With that, we will suspend now and come back at a quarter 
after twelve. Thank you.
    [Recess.]
    Mr. Cummings. Ladies and gentlemen, we will proceed with 
the hearing.
    We will now hear from our second panel. Mr. Larry Willis, 
Mr. Michael Rodriguez, Mr. Thomas Allegretti, Mr. Otto Candies, 
Ms. Debbie Gosselin, Tamara Holder, please come forward.
    Before we start with you, Mr. Willis, let me say I have 
often questioned the good of hearings. And so I think so that 
we can be most effective and efficient, you all have been 
fortunate enough to have heard the testimony already and what 
we want to do is be most effective and efficient with your 
time, so, first of all, I am going to hold you to the five 
minutes. I want to move through this piece of the hearing 
quickly because a lot of us have other hearings that we have 
got to get to later on.
    But if you can, I know how it is when you have got a 
statement, you just feel like the world has got to hear it. I 
know. I know. Your kids are watching on C-SPAN and your co- 
workers and all that. I got it. All I ask you to do is make 
your statement as succinct as you can. But do something else. 
Tell us how we can address the problems after hearing what you 
have heard. Other than that, it does not do us a lot of good.
    We have heard the testimony. My plan is to take a lot of 
things that you say, present them to the Coast Guard and to TSA 
so that when I bring them back in 90 days, first of all I am 
going to try to get some type of timetable, and then I want to 
make sure that we try to get them to address your concerns. You 
have the advantage. You have been fortunate enough to have 
heard what they had to say. So all I am trying to do is get you 
to help us help you.
    So with that, Mr. Willis, five minutes.

  TESTIMONY OF LARRY WILLIS, GENERAL COUNSEL, TRANSPORTATION 
   TRADES DEPARTMENT, AFL-CIO; MICHAEL RODRIGUEZ, EXECUTIVE 
   ASSISTANT TO THE PRESIDENT, INTERNATIONAL ORGANIZATION OF 
   MASTERS, MATES AND PILOTS; THOMAS ALLEGRETTI, PRESIDENT, 
  AMERICAN WATERWAYS OPERATORS; OTTO CANDIES, III, SECRETARY/
   TREASURER, OTTO CANDIES, LLC FOR OFFSHORE MARINE SERVICES 
ASSOCIATION; DEBBIE GOSSELIN, OWNER OF CHESAPEAKE MARINE TOURS/
WATERMARK CRUISES, PASSENGER VESSEL ASSOCIATION; TAMARA HOLDER, 
          REPRESENTATIVE FOR RAINBOW/PUSH ORGANIZATION

    Mr. Willis. Mr. Chairman, Congressman LoBiondo and others, 
and I will try to follow your dictate. I will keep my comments 
under five minutes. Let me first thank you for inviting 
transportation labor to testify this morning, I guess afternoon 
now.
    We agree with the comments that have been made here, made 
by you, Mr. Chairman, and others that the TWIC program to be 
effective and to do it in the right way has to strike the right 
balance. It absolutely has to enhance security, but it also has 
to protect the legitimate rights of frontline workers, those 
that are represented by our 32 member unions, and it also has 
to ensure that you have the free flow of commerce. Because 
making sure that our guys can get to work everyday and go do 
their jobs, whether they be longshore workers, maritime workers 
that Mike Rodriguez will talk about in a second, rail workers 
that are also covered under this rule to the extent that they 
have unescorted access to a seaport, truck drivers and other 
workers is critical.
    We think on the criminal background check part, Congress 
generally got it right with the MTSA of 2002, that an 
individual should only be disqualified for their criminal 
activity if they have committed a crime within the past seven 
years or released from incarceration within the past five for 
an offense that causes that person to be a terrorism security 
risk. We always thought that was a pretty good standard and we 
did a lot of work with Members of this Committee and the Senate 
back in 2002.
    We are concerned, though, especially as we move to 
implementation of this program, that the offenses articulated 
by TSA and how they interpret those offenses and apply it 
criminal records, that we indeed want to accomplish the goal, 
which is to not have terrorist elements work in our seaports or 
our vessels, but not punish someone twice for simply making a 
bad decision several years ago that had nothing to do with 
terrorism.
    On that point, the waiver process that was included in the 
MTSA and that has been picked up by TSA in their regulations 
both for Hazmat and maritime TWIC, it is absolutely critical 
that a worker should have the opportunity to come forward and 
say yes, I committed a disqualifying offense but nonetheless I 
am not a security risk, and do that in a reasonable expediated 
fashion. TSA has told us, as they have told others, that on the 
Hazmat program they wished that more people would apply for 
waivers. I think it is going to be incumbent for TSA to make 
that process as easy to navigate as possible, to get 
information out. We are going to do that from obviously a union 
perspective. But it is a very large population and I think TSA 
and the Coast Guard should be in the forefront of that.
    Let me make a comment about talk that is going on right now 
about the 9/11 bill. There is a provision that got in in the 
Senate that would codify the list of offenses that TSA has put 
out into statute. Members of this Committee, Members of the 
Homeland Security Committee on this side and others have 
expressed concern of whether the list of crimes that will 
disqualify a worker is appropriate. To the extent that 
conference committee is considering putting that into statute, 
that could run counter to that.
    We would hope that the Secretary would have some discretion 
to modify the offenses as this program goes forward. We would 
hope that the concept that someone would be disqualified from 
holding a TWIC simply for being indicted for a disqualifying 
offense should not be included in the legislation. And I wanted 
to raise that because I know that matter is being discussed and 
debated as we speak.
    On the waiver process, as was discussed in the first panel, 
the inclusion of an Administrative Law Judge to hear denial of 
waivers was another important priority for us and one that was 
included by this Committee and others in the Coast Guard 
reauthorization bill. We think that is a good right. We think 
that it will bring some fairness and balance to the program. 
But Mr. Chairman, as you pointed out in your opening statement, 
there has been some recent questions about the impartiality and 
the independence of Coast Guard ALJs that I think need to be 
understood and worked out.
    We are also concerned that as the process has been 
explained to us, even if an ALJ determines that a waiver should 
have been granted, TSA can appeal that back to itself and 
overrule the ALJ decision. So I guess we fundamentally question 
whether the ALJ process as envisioned by the Coast Guard and 
TSA is really going to be the independent review that Congress 
intended when it included it.
    Also, a lot of talk in the first panel about the cost. We 
are very concerned that 100 percent of the cost of the card is 
going to be imposed on individual workers. We hope that is 
something that can be reexamined.
    I see that my time is up so I will stop and let others 
speak. Thank you.
    Mr. Cummings. I failed to give your title, Mr. Willis. I 
apologize. Mr. Willis is General Counsel for the Transportation 
Trades Department.
    Mike Rodriguez is Executive Assistant to the President of 
the International Organization of Masters, Mates and Pilots. 
Mr. Rodriguez.
    Mr. Rodriguez. Thank you very much, Mr. Chairman. In the 
interest of time, I will cut to some of the more important 
parts of what I had prepared. I would agree with much of what 
Mr. Willis said. We are concerned about fairness in the 
determination of who is really a terrorism risk. But we also 
want to point out a couple of other points.
    The TWIC program must be a national program. We believe 
Congress envisioned a national maritime security system that 
would preempt State and local systems. Indeed, protecting our 
nation from terrorist attacks is a national priority. However, 
the TWIC regulations allow State or local governments to impose 
their own duplicate systems. We feel this will result in higher 
costs and additional burdens for workers and vessel operators 
as they trade between States and even between facilities in the 
same State. We are also concerned about processing delays at 
the State and local levels. Congress should act to ensure that 
the Federal laws and regulations governing the TWIC program 
preempt all other State and local access control requirements 
for all transportation workers.
    The other point that we wanted to make is something along 
the lines of where the TSA has gone. We heard the first panel 
talk a little bit about the standard that they have adopted for 
the TWIC. We feel that is kind of at the heart of a lot of the 
delays. So the piece that I have here that is relevant is the 
TWIC program should be compatible with international systems.
    We have argued that the TWIC program should take advantage 
of proven biometric technology by using the International Civil 
Aviation Organization standards, or ICAO. The ICAO standards 
are simple, efficient, and recognized worldwide. Machine 
readable travel document control systems used by the United 
States for electronic passports that monitor entry of foreign 
travellers to the U.S. employ the ICAO standard.
    We feel the ICAO standard is the logical choice for a 
biometric security card that could be interoperable with the 
TWIC and the Seafarers' Identity Documents that will be carried 
by the crews of foreign ships trading with the U.S. We feel the 
U.S. could have had a TWIC program up and running long before 
now had TSA adopted the ICAO standards and then developed the 
additional functionalities in partnership with the rest of the 
world.
    Again, Mr. Chairman, in the interest of time, I will 
conclude my remarks there and look forward to your questions. 
Thank you.
    Mr. Cummings. Thank you very much.
    Mr. Tom Allegretti is President of the American Waterways 
Operators.
    Mr. Allegretti. Thank you, Mr. Chairman. Good afternoon, 
Mr. LoBiondo. Thank you for the opportunity to testify. I will 
respect the five minute rule and I will simply highlight our 
major concerns with the TWIC rule.
    Let me start by saying this is a truly big deal for 
America's tugboat and towboat industry. AWO members from across 
the country have very serious concerns with the impact that 
this regulation is going to have on our industry and on the men 
and women who work in our industry. We have three major 
concerns.
    First, we are concerned that the continuing delay in the 
startup of the TWIC enrollment process makes it increasing 
difficult for mariners to obtain their TWIC cards before the 
deadline. The SAFE Port Act told DHS to begin TWIC enrollment 
on July 1 of this year, and it requires mariners to obtain 
their TWICs by September 25 of 2008. As the enrollment process 
continues to be delayed, the timeframe for mariners to obtain 
their TWICs continues to be shortened. DHS and Congress need to 
be prepared to extend the September 2008 deadline in order to 
allow mariners to obtain their TWICs without a last minute 
crisis.
    Second, we are concerned that requiring card readers on 
small vessels like tugboats, towboats adds no practical 
security value at all either for the vessel itself or for the 
overall transportation system. The SAFE Port Act gives DHS the 
authority to limit the card reader requirement to vessels with 
more than a certain number of crew. We suggest that vessels 
with 12 or fewer crew members should not be required to have a 
card reader aboard the vessel.
    Third, our most significant concern is the process for 
obtaining a TWIC card and that it will become a significant 
barrier to entry in the maritime industry for new hires and 
that this is going to worsen the personnel shortage on our 
vessels. Mr. Chairman, this is a huge deal and unless Congress 
fixes it, companies face the prospect for tying up their boats 
for lack of crew members to operate them, and the nation faces 
the prospect of interruptions in the delivery of essential 
cargoes.
    The legislative change that was discussed by Congressman 
Baker and Chairman Oberstar during the markup of the Coast 
Guard authorization bill two weeks ago would go a long way 
towards solving this problem. The provision would allow a newly 
hired employee to work onboard a vessel for up to 90 days 
before, before making application for a TWIC. We urge the 
Committee to include a provision of this type in the manager's 
amendment when the Coast Guard authorization bill goes to the 
House floor.
    Mr. Chairman, let me emphasize that it is important to say 
that this provision in no way degrades the security that 
Congress meant to achieve through the MTSA 2000 law. The 
provision only applies to crew members who are working on 
vessels that are already operating in compliance with Coast 
Guard vessel security plans, and only applies to crew members 
who have both passed a preemployment drug test and a name- 
based check against the terrorist watch list. This is the same 
security screen conducted by the same Federal agency that is 
currently required by TSA's existing interim work authority for 
new hires. We take security very seriously and we think that 
this provision is essential and in no way degrades maritime 
security.
    Mr. Chairman, let me just close with an observation and one 
that piggybacks on something you said in your opening remarks. 
Since 9/11 the Federal Government has sought to enhance our 
security infrastructure. What they have not done very well in 
my view is to achieve a proper balance between new levels of 
security and other important national goals.
    In this case, the other significant goals that have 
suffered in the development of these regulations are those of 
providing economic and employment opportunities to American 
workers and keeping the commerce of our Nation flowing. These 
two goals are critical to our national health and vitality. And 
by not including a real interim work authority provision in its 
regulations, DHS has in our view not given proper attention to 
these other national priorities. Congress can lead the way to 
ensure the security of our country while also keeping mariners 
working, keeping vessels operating, and keeping the nation's 
commerce flowing. Thank you.
    Mr. Cummings. Thank you very much.
    Mr. Candies is the Secretary and Treasurer of the Offshore 
Marine Services Association. Mr. Candies.
    Mr. Candies. Good morning, Mr. Chairman and Committee 
Members. My name is Otto Candies, III, and I am testifying on 
behalf of the Offshore Marine Service Association, or OMSA. 
OMSA is the national trade association representing the owners 
and operators of vessels that support America's offshore oil 
and gas industry.
    OMSA member vessels carry every piece of equipment and many 
of the workers needed to explore and produce our offshore 
energy resources. Our company and our industry takes its 
responsibilities very seriously, whether it is our 
responsibility to our customers or, in the case of security, 
the responsibility to the country and the American people.
    The Commandant has talked about the need to buy down risk 
in the maritime sector, and here are some of the things that 
our industry is already doing to buy down that risk.
    We have already worked with the Coast Guard to develop 
comprehensive industry-wide security plans for our vessels.
    We have trained and drilled our crews on the requirements 
of those security plans so that even the newest, least 
experienced mariner on one of our vessels understands his or 
her responsibility to maintain security.
    Significantly, the Coast Guard puts our mariners through 
one of the most vigorous background checks of any mariners in 
the world.
    Far and away, we believe that the biggest factor in buying 
down risk offshore is a requirement that our vessels be owned 
by Americans and crewed by Americans. That one thing is key to 
protecting our maritime sector from foreign terrorists who 
would use our vessels as weapons. On the other hand, if U.S. 
citizens working on U.S.-flagged vessels in U.S. waters 
increase our security, anything that creates an obstacle to 
putting U.S. citizens to work or discourages U.S. citizens from 
wanting to go to sea reduces our security.
    With that in mind, we are concerned that the TWIC program 
as currently envisioned will subject our mariners to an overly 
complex, overly expensive process that will discourage 
Americans from seeking a career in the maritime industry. Let 
me be clear, our industry supports background checks. However, 
if the system is too cumbersome and expensive, if the long wait 
for a TWIC card makes it too difficult to recruit people into 
our industry, it will harm our ability to maintain security.
    We are also concerned over the confusion and changes in the 
TWIC program. The regulations say that mariners must obtain a 
TWIC card by September 2008. With the delays that we have seen 
thus far in implementing the process, we are concerned about 
that deadline for mariners. That looming deadline is another 
source of uncertainty and worry for mariners. We need only to 
look at the recent change in the passport requirements to see 
what an overly short deadline can do to the processing system. 
That sudden demand on a system that was not prepared for it 
resulted in thousands of Americans being inconvenienced. The 
same kind of delay in TWIC processing could cripple our 
industry.
    At the very least, we feel that the deadline for mariners 
should be delayed by 12 months, to September of 2009. However, 
we suggest the agencies go one step further. That they 
implement the processing for non-mariners, allowing that 
backlog to clear, and then implementing TWIC for mariners on 
vessels. Remember, this will not degrade security because our 
mariners are already undergoing a Coast Guard check that is 
more thorough than the TWIC security check. On the contrary, by 
implementing the shore side TWIC requirements first, you allow 
those workers to obtain their cards without facing the crush of 
200,000-plus mariners trying to get their cards at the same 
time.
    We are also very concerned about the potential requirement 
for TWIC readers on our vessels. We oppose this for the 
following reasons:
    The MTSA does not require readers and we do not believe 
that Congress intended for there to be readers on the vessels. 
The agencies have pushed for that concept over the near 
universal opposition of the maritime industry. By OMSA's very 
rough estimates, the readers and personnel to keep them in 
operation could cost our fleet alone more than $100 million. 
Yet the agencies have never shown that the readers on vessels 
reduce risk in a cost effective manner.
    While we agree that the background checks provide companies 
with an effective way to vet prospective mariners in the hiring 
process, readers in the vessels would be more of a hindrance 
than a help.
    We question the reliability of the readers on offshore 
vessels. Our work takes us from the hot, humid waters of the 
Gulf of Mexico to the frigid waters of the Arctic. There have 
been no tests to prove that these readers can work under these 
conditions.
    Finally, we understand that there is an amendment, which 
was mentioned earlier by Congressman Baker, that would allow 
newly hired employees to go to work while their TWIC cards are 
being processed. We agree with that concept and, indeed, have 
made similar recommendations. But the amendment as it is 
offered is unnecessarily limited. If it was expanded to include 
offshore vessels and passenger vessels, then it would receive 
our wholehearted support. Thank you.
    Mr. Cummings. Thank you very much.
    Ms. Debbie Gosselin is the owner of the Chesapeake Marine 
Tours/Watermark Cruises company and a member of the Passenger 
Vessel Association. Thank you very much for being with us.
    Ms. Gosselin. Mr. Chairman and Members of the Committee, 
thank you for this opportunity today. My name is Debbie 
Gosselin. I am owner of Watermark Cruises, and I am here to ask 
for your assistance in changing the TWIC requirements so that 
they do not cripple my small business and many others across 
the country like mine.
    We have been in business since 1972 in Annapolis, Maryland. 
We have 11 Coast Guard-inspected, U.S.-flagged passenger 
vessels, with capacities from 17 to 297 passengers. I will cut 
short my comments about the card readers and say that I echo 
everything that Mr. Candies said about the card readers.
    Watermark and PVA understand the need for and support 
rational security measures. Our vessels operate in compliance 
with an approved security plan, as required by MTSA. We 
completed our risk-based threat assessment, identified our 
vulnerabilities, and established procedures to control access 
to the restricted areas of our vessels. We have led the 
industry in our area with our extensive security training and 
crew drills, at considerable cost.
    We believe that a company like mine, a small one, does not 
need an electronic TWIC card or a reader for that card to know 
that our crew members are who they say they are when they show 
up to work. Here is a picture of three of our regular crew 
members here. They are the same Sam and Karly and Bill that we 
interviewed, hired, and trained. There are other methods, such 
as traditional background checks, company i.d. cards, and 
simple recognition by sight, that can be used to verify the 
status of employees at little or no cost to the small employer. 
All of our captains and crew are, of course, U.S. citizens. We 
are a completely domestic operation.
    Our vessel operation depends on a seasonal workforce, and 
that is the focus of my comments. Last year we hired 80 
seasonal employees, many of whom would have to get a TWIC. For 
every one that was hired and showed up to work, there were at 
least four candidates for those positions. We compete 
aggressively with other businesses for good seasonal employees. 
Our competitors are hotels, marinas, and restaurants. These are 
not subject to TWIC.
    Most of our seasonal employees are college or high school 
students who need a job when school gets out to make the money 
they need for school next year. They are only available for 90 
to 100 days. They cannot apply for summer employment and then 
wait 30 days for an i.d. card. They cannot even wait two weeks, 
and neither can I. They cannot afford to pay for the TWIC card, 
so I would be forced to pay.
    And there are other costs associated, as you know, with 
getting the cards which I will not go into, because the bottom 
line for me is that if I asked these kids to make this trip, no 
matter who pays for it, they are just going to simply work 
elsewhere. It is too much trouble for a summer job. And I am 
lucky to have an enrollment center that is only a hour away, 
unlike many of our PVA members.
    In its recently issued implementation guidance, the Coast 
Guard says that an employee can to be put to work for an 
interim period based on the applicant's preliminary background 
check while the TWIC application is being processed. I do not 
need sophisticated card biometrics to recognize my employees. 
Why cannot this background check be sufficient, thereby 
avoiding the issuance of the expensive and unnecessary card? If 
each employee on my boat could be checked by the FBI and TSA, 
would that not accomplish Congress' goal of knowing who is on 
our vessels?
    And I said I would not get into the card readers. We are 
going to participate in one of the prototype testing. I am 
looking forward to that. It is going to be very interesting to 
find out where they are going to put this thing. They may just 
have to nail it to a piling at the end of City Dock in 
Annapolis. We have a public access facility there.
    I believe that an appropriate level of security can be 
achieved without unnecessarily harming American small 
businesses like mine. But changes in the TWIC requirement are 
essential to accomplish this. Thank you.
    Mr. Cummings. Thank you very much.
    Ms. Tamara Holder represents Rainbow/PUSH Coalition. She 
and Reverend Jesse Jackson were some of the folks who brought 
this issue to my attention after becoming Chairman almost 
immediately after I got the position. So thank you very much 
for being with us, Ms. Holder.
    Ms. Holder. Thank you. Good afternoon, Chairman Cummings 
and Members of Congress. Thank you for the opportunity to speak 
on behalf of the Rainbow/PUSH Coalition, Reverend Jesse 
Jackson, Senior, and, most importantly, I am speaking on behalf 
of over 100 men who I represent as an attorney who are employed 
in Chicago as America's railway workers.
    I have very little knowledge about the TWIC legislation and 
the maritime industry. However, I have basically become an 
expert in this pseudo TWIC program that was implemented 
possibly throughout the country on America's railroads. I am 
here to provide you with our expectation of the serious 
problems that will occur if certain TWIC standards are not more 
carefully defined before they are implemented. I am shocked 
that we presented this case back in November to Congress and 
there have been no hearings as to the impact that this has had 
on the rail industry and how that could transfer over into 
maritime.
    The railroads took recommended action items from the Hazmat 
program, applied similar standards to the employees of the 
railroads' contractors, and they did not give much thought to 
the consequences. I represent men and women who have worked on 
the yards for as many as 13 years. They were forced to submit 
to background checks in the name of homeland security, they 
were denied access, they were not given a reason why they were 
denied access, and they were left with no answers, very little 
appeals process, and basically no job and no money to provide 
for their families. Furthermore, the vendors were threatened 
that if they did not comply they would face fines, they would 
lose their contracts, so their backs were against the wall as 
well.
    To further explain this, I am here to forewarn you that we 
anticipate three problems with the TWIC program, if it is 
implemented immediately. And that is the issue of crimes of 
concern, the reporting of these crimes, and the appeals waiver 
process. We really feel that you need a bit more time before 
this program is implemented.
    Crimes. None of my clients have similar stories. There are 
some who have one felony conviction, others have a felony and 
multiple arrests, other have misdemeanors that may fall under 
crimes of concern. I would like you to go back to the history 
books. History notes that African-American inmates worked on 
the railroads in the chain gangs, and the movies depict mafia 
ex-cons working on the ports of the East Coast. Although these 
are people who have felony convictions, they are not terrorists 
in the traditional sense of the word. Also, these men who are 
convicted felons, they know that they can get jobs on the 
railroad. They go to actual reentry employment programs and get 
placement on the railroads. I asked each of my clients what 
would happen is a terrorist walked onto the yard, a traditional 
terrorist, and they said they would immediately report it and 
they would never allow somebody onto the property. So they are 
a second layer of security.
    None of my clients represent the traditional permanently 
disqualifying offenses of terrorism, espionage, or treason. 
These are people who have committed crimes of drug and gun 
offenses, also there are murders on the yard. Most of these men 
lack formal education or GED. Many of them do not have options 
before they become convicted felons because of the environment 
they grew up in. They become convicted felons and they have 
even less options. We understand the need for a screening 
process but it needs to be more defined. It cannot be so vague.
    These interim disqualifying offenses do not make sense. I 
have a client who has a misdemeanor gun possession that is 
sealable in the State of Illinois. Would that disqualify him? 
This five to seven year period needs to be more clearly 
defined. I have a client who actually won an appeal, however, 
he is on parole, and this was for a murder case. So he is back 
on the yard even though murder under TWIC is a permanent 
disqualifying offense. Also, I would like you to consider that 
many people in America have substance abuse issues and that 
does not relate to terrorism. We have people who had DUI felony 
convictions and they do not have a license, and therefore they 
were barred.
    As far as reporting goes, we feel that this is the most 
essential element to the program. Background checks must be 
done more thoroughly. In almost every case I reviewed, the 
screener looked at the applicant's records superficially and 
made a swift determination without looking into the record. For 
example, one client was originally charged with felony 
possession with intent to deliver, but the charge was amended 
to a misdemeanor possession of cannabis to which he pled 
guilty. What they reported was the arrest for the felony and 
the guilty conviction. They did not go through the record 
thoroughly. The process may be a bit more time consuming, but 
if the cost is on the applicant, he must be entitled to a 
thorough background check. It is not his duty to prove that a 
report was inaccurate. These screeners are people who sit in 
the clerks office and just type away on a computer.
    Another problem is that an applicant's FBI records and 
fingerprints are not necessarily thorough enough. I have a 
client who was held on a murder charge and they reported that 
to the FBI, except when he was released that was not reported. 
This man lost his job. Furthermore, although the Fair Credit 
Reporting Act does not apply to these people, I believe that 
the standards should apply to the TWIC program. A copy of one's 
record should be given to them prior to adverse action being 
taken so that they can review it. It should not be a process 
where they ask for the report that they paid for.
    As far as the appeal and waivers process, all citizens of 
this country should be afforded equal protection of the laws. 
However, this fundamental right was stripped from these 
contractor employees because they were not afforded a due 
process opportunity. The railroads did attempt to create some 
kind of appeals process but because there was no original 
standard for the disqualifying offenses, there was no formal 
appeals process. The terminated men were given letters of 
denial, which is similar to what TWIC will do. They were not 
given a copy of their background check. They were not given 
guidance as to how to get their job back. It was even stated on 
the first panel that the person needs to take advantage of the 
appeal. Well if they do not know about an appeal, how do they 
take advantage of it?
    Members of Congress, many of these employees will not be 
able to properly read or write. Rainbow/PUSH and I worked 
together with about 30 people writing their appeals for them.
    As far as this ALJ hearing, where is it going to be 
located? Do people in California have to travel to the one 
location that has the appeal address that currently is listed, 
from California across the country for an appeal? Some were 
told to submit their appeals via email.
    We represent men who have been on the yards for over a 
decade and these men are dedicated to their jobs. They want to 
go to work. They have been rehabilitated. And we ask that you 
further look into this pseudo-type TWIC program to get some of 
the answers that you have asked of the panel. Thank you.
    Mr. Cummings. Thank you very much.
    Mr. Rodriguez or Mr. Willis, you both have indicated that 
you believe the TWIC program should preempt all of the State 
and local access control requirements. Do you believe that 
there are legitimate local security concerns that a State or 
local jurisdiction may need to address that are not addressed 
by the TWIC security program?
    Mr. Rodriguez. Mr. Chairman, as I stated in my remarks, 
this is a national concern. And in order to balance the needs 
of this program, security and the facilitation of commerce, we 
believe that it is the role of the Congress to set the standard 
for the system and to make it uniform throughout. To answer 
your question in another way. Sure, every facility has a right 
to protect itself, to put up a system that it believes is going 
to be secure.
    But still we have this other aspect that we have to be 
aware of. We are talking today about workers in the maritime 
industry. I am hearing now about the rail workers. There are 
truckers who are going to come under this security system. So 
to the extent that we have to balance the needs of security and 
facilitate commerce, I believe that this needs to be a Federal 
system.
    Mr. Willis. I would agree with the comments that Mike just 
made. When Congress put this in place in MTSA, even before that 
when TWIC was envisioned as TSA sort of sees it, it was 
supposed to be a national program. You are supposed to do a 
security check at the national level.
    And for our guys to go do that, to go pay $139 or whatever 
the cost ends up being, and then to have to get a duplicative 
card or a duplicative check depending on what port or what 
State or what vessel that you may be operating is just going to 
create an additional burden that, quite frankly, is unnecessary 
because TSA has made a threat assessment based on a criminal 
review, based on an immigration check, based on their terrorist 
watch list. So we think that is sufficient. We would like to 
see Congress preempt that or TSA preempt that. If we are going 
to do this, let us do this once.
    Mr. Cummings. Mr. Willis, Mr. Rodriguez, Mr. Allegretti, 
and I guess Ms. Holder, all of you talked about this issue of 
past criminal activities. The more I listened to the earlier 
testimony, I can see where you would have a whole lot of appeal 
situations. You would have a lot of cases because of the fact 
that, several of you have said, you have folks who may have 
limited educations, they may have done something years ago, 
they have straightened their lives out, they are in a position 
now where they are taking care of their family, they are 
working every day, they have a great work record, and the next 
thing you know they have no job. On the other hand, we are 
trying to make sure that we address the issues of national 
security. And I take it that what you all are saying is that, 
and correct me if I am wrong, that you want to have the 
national security but you want to make sure that any kind of 
disqualifying decisions are consistent with a reasonable 
likelihood that somebody has done something connected with 
national security. Is that right?
    Mr. Willis. That is correct.
    Mr. Cummings. Do you think that a number of your members 
would be affected by this, Mr. Allegretti?
    Mr. Allegretti. Yes, Mr. Chairman, I think so. I have heard 
a lot on this subject from our members. Much of what I hear is 
consistent with what many Members of the Committee said this 
morning. It is looking at the issue of risk. What is the risk 
profile of the people we are trying to keep out of our 
industry? We are not trying to keep someone out of the industry 
who may not qualify to be a choirboy at the Vatican. We are 
trying to keep someone out of the industry who poses a national 
security threat.
    And when you look at the folks who are in our industry, 
they may not have a purely pristine background, but there is 
plenty of evidence to suggest that many of those folks deserve 
a second chance and when given a second chance become very 
productive, stable, reliable crew members aboard our vessels 
and the vessels of many of the folks represented here. And so I 
think it is really an issue of evaluating the risk profile of 
the candidate and having that metric be national security.
    Mr. Cummings. Ms. Gosselin, one of the things that you 
mentioned, and it just took me back to some of the issues that 
Mr. Taylor raised, this whole idea of the cost for the TWIC 
cards. I take that these young people work during the summer; 
is that right?
    Ms. Gosselin. Yes, sir, primarily.
    Mr. Cummings. How many of them do you have working on 
average during the summer?
    Ms. Gosselin. During the summer this year, so far we have 
hired 26 deckhands.
    Mr. Cummings. Okay. So that means that you would have to be 
paying 26 times $137.
    Ms. Gosselin. And multiply that by four because you have to 
pay for the potential employees and we get four applications 
for every person that we actually put to work.
    Mr. Cummings. So that is a problem.
    Ms. Gosselin. That is a problem in itself. And even larger 
for me is that I think that our students will go to the 
restaurant or marina or hotel right next door rather than deal 
with this, even if I pay for it.
    Mr. Cummings. Do you all have anything that you would like 
for us, you heard the testimony--and by the way, we will give 
you a few days, so if you get back to office and think of some 
other things--things that you would like for us to address to 
our witnesses that appeared a little earlier? You can tell me 
now, or if you have some things, let me know. Let me give you 
an example of what I am talking about. One of the things that 
when they were talking about the readers, you may have heard me 
mention I met with some folks in my office who were small 
operators, just the types of things that you are talking about, 
Ms. Gosselin, and they were saying that because they are so 
small they do not know how this would work. That is why we 
spent some time trying to address how does all of this work 
when have these situations like with your boats, Ms. Gosselin, 
and others. So those kind of unique questions.
    Sometimes I think there is a divide between those who make 
policy and folks who have to deal with policy, who actually 
have to deal with the results of what we do. So I just want to 
make sure that you have every opportunity so that we can at 
least present those issues. I do not want you to spend a year 
to tell me this. And you do not have to say anything. But if 
there are things that you really want us to address, and I want 
you to be short.
    Ms. Gosselin?
    Ms. Gosselin. I think the first thing is what you talked to 
the Admiral about; and that is, to make sure that the pilot 
program, the testing program is completed before they write the 
regulations. There is concern among all of us that the 
regulations are being written and will come out simultaneously 
with the end of the testing. We want to make sure that the 
testing produces the regulation.
    Mr. Cummings. Very well. Mr. Allegretti?
    Mr. Allegretti. Mr. Chairman, I think the record on the 
Government panel was left a little muddled and I would like to 
clarify for the Committee's consideration. In response to the 
question about why they do not like the interim work authority 
that is under consideration by the Full Committee, they talked 
about a couple of things. They mentioned the inability to track 
an individual who would be put through this interim work 
authority process. They absolutely have the ability. Once that 
person goes into Homeport and has cleared the terrorist watch 
list, notification is provided back to the company that is 
dated and that document will be aboard the vessel for any Coast 
Guard boarding officer to look at.
    On the issue of funding, they suggested that perhaps there 
would be an absence of the Government's ability to collect a 
fund because we are pushing off the TWIC application. Well, the 
Government would not incur the cost of the TWIC application if 
we pushed it off for 90 days. Also, that process of running 
people through the terrorist watch list is a very low cost 
process and one that the agency has actually already used to 
clear port workers and longshoremen. So we are not asking for 
something that they have not already done without the 
requirement for Government funding.
    And the final point, very briefly, is that what we are 
asking for here differs not at all from the current regulation 
that was published by the agency. We are simply asking to 
change the order so that someone new coming aboard does not 
have to do as their very first order of business travel to a 
TWIC center. All of the other elements of clearing that 
person's background will remain the same. I would like the 
record to be clear on that.
    Mr. Cummings. Very well. Mr. Rodriguez?
    Mr. Rodriguez. Yes, Mr. Chairman. Going back to something 
that I mentioned before in my remarks about preemption, there 
is also a problem that we have in getting our sailors, our 
mariners on and off their ships, on and off their vessels, 
crossing through facilities. I think something that Mr. Poe 
touched on earlier was the chemical facility security 
regulations.
    We are a little surprised that the Coast Guard and the TSA 
were unaware of the rulemaking that came out last winter, early 
spring. We provided comments that there should be a way for an 
MTSA regulated facility, a marine facility that is on a 
chemical production facility, there should be a way for those 
mariners to have access to shore leave and those kinds of 
things. Very important issue for us.
    I would also like the Congress, your Committee to look at 
the ILO Convention 185 that talks about using the ICAO 
standards, the International Civil Aviation Organization 
standards for Seafarers' Identity Documents. Right now, the way 
the TWIC program is structured, we are looking at ourselves, we 
are looking at Americans. Probably 95 percent of the vessels 
coming into this country are foreign flags with foreign crews. 
Eventually they will carry Seafarers' Identity Documents that 
will comply with the ILO 185 Convention. So we would like you 
to look at that. We would be very happy to come in and talk to 
you about what all that means.
    Mr. Cummings. Mr. Willis?
    Mr. Willis. I think there are several issues to talk to TSA 
and the Coast Guard about. First, as TSA mentioned, the 
background check that they are going to do for maritime TWIC is 
basically identical to the background they have done for the 
Hazmat program and are doing for the Hazmat program. I think it 
would be interesting to ask them to ask them how they are 
dealing with the appeal/waiver issues. How many of these 
waivers are actually granted? Why are they denying waivers? 
What are some of the crimes in the background that they really 
have a problem with?
    Are people not re-upping for the Hazmat CDL because of this 
background check process? How many workers are being lost in 
that industry? That I think is going to be a problem in that 
industry. But I think if you go to the port, maritime side of 
things, it is going to be even more important.
    I think also asking who is really looking, and Mr. 
Chairman, I think you raised this in the first panel, who is 
really looking at these criminal records? Are they trained to 
do it? Is this a TSA function, is this a contractor function? 
Does TSA have some obligation to make sure that when they look 
at the criminal records from the FBI that they are accurate. 
There have been a number of problems, and Ms. Holder mentioned 
this in her opening statement, with the accuracy of these 
records. There has to be some affirmative duty on TSA's part to 
make sure that what they are looking at is accurate.
    And finally, the whole ALJ process that, again, originated 
in this Committee, it originated with then Chairman Don Young 
in the Coast Guard reauthorization bill, that that is going to 
be a program that is going to work as designed and will 
actually provide workers with a real, independent process. 
Because I think, as it has been laid out, there is going to be 
a limited number of ALJs in a limited number of cities. And the 
ability I think of TSA to appeal an adverse decision back to 
itself is troubling to us.
    Mr. Cummings. Mr. Candies?
    Mr. Candies. Just one observation that I wanted to make. I 
think everyone has pretty much already mentioned the same 
concerns that I would have. The observation I had is I noticed, 
despite the varying backgrounds of the people here, the 
consistency of the concerns that they have. None of the 
concerns were with the idea of security. I think everyone here 
has pretty clearly stated that they are in favor of that. It is 
with the functionality of this process and making sure that we 
do not introduce yet another barrier to entry for the workers 
that we are already having difficulty obtaining and retaining. 
So that was the observation that I had from the comments that 
were made and what echoed the comments that the other panelists 
made.
    Mr. Cummings. Ms. Holder?
    Ms. Holder. We would like you to look into this pseudo- 
TWIC pilot program that was instituted on the rail industry. I 
think it could provide you with a lot of answers as to what you 
can expect. The crimes, they really do need to be more 
thoroughly defined. It seems that they are extraordinarily 
broad. The appeals process, like Mr. Willis stated, needs to be 
fair and independent.
    And also, what is the time period? These people are waiting 
around for months and months and months. It is not going to be 
a 30 or 60 day period; there is no way of that. And the 
background check training, who is really looking into these 
records. Also, when we brought the issue to TSA, they said they 
had people on the ground investigating the issue. I would like 
to ask TSA what did your investigation of the railroad case 
reveal. And if it revealed anything at all, then how can we use 
the revelations to apply it to the TWIC program.
    Mr. Cummings. Thank you very much. Mr. Taylor?
    Mr. Taylor. Mr. Chairman, I want to thank all of our 
witnesses. Cutting to the quick, Mr. Chairman, I am less 
convinced of the need for this card than I was a year ago. And 
I will give you a for instance. Both Mr. Candies' State and my 
State were hit very hard by Hurricane Katrina. Congress 
responded in a number of ways, one of which was a very generous 
program for homeowners who lived outside the flood plain, who 
had homeowners insurance, and were flooded. They could apply 
for up to $150,000, but part of that was they had to agree to 
buy Federal flood insurance in perpetuity so that this did not 
happen to them again.
    Well, just a couple of weeks ago over in the Financial 
Services Committee, David Maurstad, who is head of the Federal 
Flood Insurance program, testified that he was not going to 
follow up on that requirement. So a person gets $150,000, signs 
a contract to participate in a Federal Flood Insurance program 
forever, and here is the head of the Federal Flood Insurance 
program saying he did not have the resources to follow up on 
that $150,000 gift from our nation, which again, tremendously 
generous to the people in Mississippi, tremendously generous to 
the people in Louisiana.
    And so it has really got to make you wonder. If one 
department of Homeland Security is too lazy to follow through, 
why are we going through this $137 rigmarole that I have zero 
confidence that they are going to do any better job of 
following up on.
    And so I think all of these panelists have made some 
excellent points. Ms. Gosselin, that obviously looks like a 
bunch of terrorists to me that you have presented to this 
Committee.
    [Laughter.]
    Mr. Taylor. By the way, my teenage daughter would like to 
meet some of them.
    [Laughter.]
    Ms. Gosselin. She would have fun.
    Mr. Taylor. Okay. So I think they have made some excellent 
points. And if there is anything I am convinced of today, it is 
that the Commandant needs to come talk to us and walk this 
Committee through what exactly is it that he hopes to 
accomplish with this program. And if he cannot make a 
compelling case for it, then my opinion would be that we just 
suspend it or outright kill it right now. If they cannot do a 
better case of saying what it is they are trying to accomplish, 
how they are going to accomplish it, and what this is going to 
do instead of making these kids and young people all over the 
country want to go to work for Mr. Candies and others.
    Again, in the case of the merchant mariner documents, which 
is a fairly extensive background check, the idea of making them 
pay another $125 just to rubber stamp a background check that 
has already been done, that is not fair. That is not right. And 
we should not be about that.
    I want to thank all of our witnesses. I think you have all 
made some very compelling arguments.
    Mr. Cummings. I, too, want to thank all of the witnesses. 
And I want you to understand what you do for us. You help us 
connect the dots. Again, there is policy over here--it is sort 
of like what I tell my staff, my scheduler. I say, you make out 
my schedule, but while you are asleep I am still carrying out 
that schedule, so be careful how you make my schedule. That is 
a fact. And I think most Members of Congress probably feel the 
same way. The fact is that we make policy but we need you all 
to tell us how that plays out. So this has been extremely 
helpful.
    Again, I hope you understand what I was trying to do. I am 
just trying to make sure that your testimony is as effective 
and efficient as it possibly can be. I just do not want you to 
come here, say a few words, and then it is over. What we are 
going to do is follow up. And I agree with Mr. Taylor. It is 
one thing if you are truly doing what you say you are going to 
do. But I will tell you that our experience with Deepwater has 
left many of us on both sides of the aisle, and I think you 
could feel the frustration, this is not just one side of the 
aisle opinion, both sides are very, very concerned about this 
program.
    So again, if you have some suggestions, you really do need 
to get them to me by Monday at the close of business. Any thing 
that perhaps you may think of when you get home, get back to 
your offices or what have you that you want us to ask.
    Thank you very, very much. Thank you for spending your 
morning here with our Committee.
    With that, we will end this hearing. Thank you.
    [Whereupon, at 1:18 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
